<html>
<title> - UNITED STATES SECURITY POLICY IN EUROPE</title>
<body><pre>[Senate Hearing 114-218]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-218

                UNITED STATES SECURITY POLICY IN EUROPE

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2015

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-668 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  




















                            C O N T E N T S

                               __________

                             april 28, 2015

                                                                   Page

United States Security Policy in Europe..........................     1

Stavridis, ADM James G., USN [Ret.], Dean of the Fletcher School 
  of Law and Diplomacy, Tufts University, Medford, Ma............     5
Brzezinski, Ian J., Resident Senior Fellow, Brent Scowcroft 
  Center on International Security, Atlantic Council, Washington, 
  DC.............................................................     6
Sestanovich, Stephen, Ph.D., George F. Kennan Senior Fellow for 
  Russian and Eurasian Studies, Council on Foreign Relations.....    14

                                 (iii)
 
                UNITED STATES SECURITY POLICY IN EUROPE

                              ----------                              


                        TUESDAY, APRIL 28, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:06 a.m., in SD-
G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Ayotte, 
Rounds, Ernst, Tillis, Reed, Nelson, Manchin, Shaheen, 
Gillibrand, Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. This committee meets a 
little earlier than usual today since we have a briefing at 11 
a.m. today on the recent unfortunate tragedy of the deaths of 
an American and another one in a drone strike. The committee 
meets today to receive testimony on U.S. security policy in 
Europe. I would like to thank each of our witnesses for 
appearing before us.
    Admiral James Stavridis, dean of the Fletcher School of Law 
and Diplomacy at Tufts University and former Supreme Allied 
Commander, Europe; Ian Brzezinski, resident senior fellow at 
the Scowcroft Center at the Atlantic Council; and Stephen 
Sestanovich, the George Kennen senior fellow for Russian and 
Eurasian Studies at the Council on Foreign Relations.
    Just like the United States, Europe confronts a diverse and 
complex array of crises that are making the world a more 
dangerous place. Already this year radical Islamists attacked 
Paris and Copenhagen. Last week in the Mediterranean, over 700 
migrants perished tragically in a shipwreck fleeing the 
conflict and instability of North Africa. Then there is Russia. 
In 2012, the Defense Strategic Guidance argued that the 
changing global security environment offered a chance to 
rebalance the U.S. military investment in Europe while building 
a closer relationship with Russia.
    The Obama administration eliminated two heavy brigades 
stationed in Europe and pursued a so-called reset policy 
towards Russia. Two years later, Russia's invasion and 
dismemberment of Ukraine should remind everyone of the true 
nature of Putin's ambitions and the fragility of peace in 
Europe. Since the end of the Cold War, U.S. policy toward 
Russia was based on a bipartisan assumption that the Russian 
government sought to integrate peacefully into the 
international order in Europe and to forego a constructive 
relationship with the United States based on mutual national 
interests.
    The events of this past year have overturned that 
assumption. For the first time in 7 decades on the European 
continent, a state has sent its military forces across an 
internationally recognized border and forcibly annexed the 
sovereign territory of another state. Now, American strategy 
must adjust to the reality of the revisionist Russia that is 
undergoing a significant military modernization, and that is 
willing to use force not only as a last resort, but as a 
primary tool to achieve its neo-imperial objectives. In 
Ukraine, Russia has continued to violate the February ceasefire 
agreement. In fact, news today indicates an increase in the 
conflict. Rather than comply and withdraw from Ukraine, 
President Putin has maintained sizable numbers of artillery 
pieces and multiple rocket launchers in Ukraine.
    According to the State Department, the Russian military has 
deployed additional air defense systems near the front lines in 
Eastern Ukraine, the highest amount since last August, and a 
disturbing sign that another offensive may be imminent. In 
response, it is not that the United States and our European 
allies have done nothing. It is that nothing we have done has 
succeeded in deterring Putin's aggression and halted his slow 
motion annexation of Eastern Ukraine.
    The Ukrainian people do not want U.S. or western troops to 
fight for them. They are simply asking for the right tools to 
defend themselves and their country. Senator Reed and I, along 
with members of this committee on both sides of the aisle, have 
called on the administration to provide defensive lethal 
assistance to Ukraine. Unfortunately, the President's continued 
inaction incredibly for fear of provoking Russia is seen by 
Putin as weakness and invites the very aggression we seek to 
avoid.
    Of course there is no military solution in Ukraine, but 
there is a clear military dimension to achieving a political 
solution. As three major think tanks wrote recently, 
``Assisting Ukraine to deter attack and defend itself is not 
inconsistent with the search for a peaceful political solution. 
It is essential to achieving it.'' Only if the Kremlin knows 
that the risks and costs of further military action are high 
will it seek to find an acceptable political solution. The 
failure to raise the cost of Putin's aggression in Ukraine only 
increases and makes it more likely that this aggression could 
expand to places like Moldova, Georgia, the Baltic States, and 
Central Asia.
    This is even more worrisome in light of Russia's increasing 
emphasis on nuclear weapons. Putin has personally presided over 
nuclear weapons drills in recent months, deployed Icelander 
missiles to Kaliningrad capable of carrying nuclear warheads 
and claiming the right to deploy nuclear weapons on the Crimean 
peninsula. Russia continues to violate the IMF [Intermediate-
Range Nuclear Forces] treaty as nuclear weapons become more 
prominent in its military doctrine.
    Equally concerning, Russia's military buildup also appears 
designed to deny the United States and NATO [North Atlantic 
Treaty Organization] access to key parts of Europe, especially 
the Baltic and Black Sea regions, as a way of trying to make 
U.S. security commitments to our allies too costly to fulfill. 
Russia is clearly learning from China in this regard.
    Russia's intensifying military activity in contempt of 
international law also extends to the Arctic where it has stood 
up a new military command with more troops and aircraft 
military infrastructure and increased military exercises. One 
exercise last month included nearly 40,000 troops and more than 
55 ships and submarines. The administration needs to address 
this problem as the United States assumes the chairmanship of 
the Arctic Council over the next 2 years.
    In response to the broader challenge that Russia poses to 
security in Europe hereto, it is not that the United States and 
NATO have done nothing. We have created a modest rapid reaction 
force, increased air policing and sea patrols, expanded 
training and exercises, and deployed small numbers of 
additional forces to Estonia, Latvia, Lithuania, and Poland. 
The problem is the actions we have taken seem inadequate to the 
scope, scale, and seriousness of the challenges we face.
    I would especially highlight the fact that too many of our 
NATO allies continue to fail to provide for their own defense 
despite promises at the Wales Summit to ``reverse the trend of 
declining defense budget.'' Soon Poland and Estonia may be the 
only other allies meeting our alliance's commitment to spend 2 
percent of GDP on defense.
    None of us want to return to the Cold War, but we need to 
face the reality that we are dealing with a Russian ruler who 
wants exactly that, especially as a way of enhancing Russian 
relevance amid systemic demographic collapse and economic 
crisis. The reason for maintaining a strong U.S. military 
presence in Europe is the same as ever. To deter conflict and 
aggression, we must forget this lesson at our peril. 
Ultimately, we must lift our sights and recognize that we are 
facing the reality of a challenge that many had assumed was 
resigned to the history books: a strong militarily capable 
state that is hostile to our interests and our values and seeks 
to overturn the international order in Europe that American 
leaders of both parties have sought to maintain since World War 
II.
    I hope today's hearings will help us to better understand 
the magnitude of this challenge and what to do about it. I 
thank each of our witnesses for joining us today, and I look 
forward to their testimony. I would note in the audience we 
have parliamentarians from Ukraine, Kosovo, and Nepal who are 
with us today. I welcome them to our hearing. I especially want 
to express my appreciation for our legislators from Ukraine who 
are here on behalf of their country.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, Admiral Stavridis, Mr. Brzezinski, and Dr. 
Sestanovich, welcome. Let me thank the chairman for setting up 
this hearing to review the security situation in Europe. It 
will inform our upcoming deliberations on the annual defense 
authorization bill. On Thursday we will hear from General 
Breedlove, the Commander of U.S. European Command and NATO 
Supreme Allied Commander, and this hearing will be a wonderful 
way to begin that discussion with General Breedlove.
    The transatlantic relationship remains central to the 
United States and global security. Our NATO allies and European 
partners have been the primary contributors to the United 
States-led coalition operations in the Middle East and South 
Asia. In Afghanistan, European countries have deployed more 
than 260,000 personnel since 2007, accounting for more than 90 
percent of the non-U.S. forces participating in the ISAF 
[International Security Assistance Force] mission that ended 
last December.
    Today, however, our European partners face security 
challenges closer to home. As noted at the NATO Summit in Wales 
last September, Russia's aggression against Ukraine has 
challenged the alliance's vision of a Europe whole, free, and 
at peace. Russia has engaged in hybrid warfare to seize Crimea 
and back separatist forces in Eastern Ukraine in violation of 
the ceasefire agreement signed in September of last year and 
this February. According to the U.S. and military leaders, 
Russia continues to flow heavy weapons and equipment into the 
separatist areas, sparking fears of renewed heavy fighting 
within the coming weeks.
    One step this committee and Congress have supported is 
providing Ukraine the military assistance, including defense 
weapons, necessary for it to defend itself against further 
attacks. A recent report by leading think tanks, which Dr. 
Sestanovich co-authored, argues that ``Assisting Ukraine to 
deter attack and defend itself is not inconsistent with the 
search for a peaceful political solution. It is essential to 
achieving it.''
    I hope our witnesses will address whether they believe 
there is a coalition of countries willing to provide assistance 
to Ukraine, and whether preparing such a coalition effort would 
help or harm compliance with the ceasefire agreements. At the 
NATO Wales Summit, members approved a Readiness Action Plan to 
enhance the alliance's ability to respond quickly to security 
challenges. This year's budget request includes $800 million on 
top of the $1 billion approved last year for the European 
Reassurance Initiative, to enhance the United States' military 
presence and activities in Europe.
    A key issue over the coming years will be how U.S. forces 
should be postured in Europe to reassure allies and provide for 
a collective defense. This will depend in part on whether our 
NATO allies live up to their pledges on defense spending and 
the levels of host nation support for U.S. forces in Europe.
    NATO is facing security challenges along its other borders 
as well. Countries along the Mediterranean border are grappling 
with the prospect of tens of thousands, possibly more, of 
migrants fleeing instability in Libya, Syria, Eritrea, and 
elsewhere. Efforts to respond to this crisis have been mixed to 
date, and it is clear more must be done soon because the flow 
of migrants is not likely to subside given increasing violence 
in Libya and other conflict zones.
    To the southeast, the flow of foreign fighters across 
Turkey's border into Syria and back heightens the risk of 
future anti-western attacks like those in Paris and Brussels, 
and raises the question as to whether ISIL [the Islamic State 
of Iraq and the Levant] has more broadly infiltrated Europe's 
cities. In the north, Russia is expanding its military 
activities in the Arctic, potentially challenging international 
norms and laws governing that region.
    I look forward to our witnesses' testimony on these and 
other security challenges in Europe, and, again, I thank them 
for their willingness to appear this morning. Thank you.
    Chairman McCain. I welcome the witnesses. Admiral 
Stavridis?

 STATEMENT OF ADM JAMES G. STAVRIDIS, USN [RET.], DEAN OF THE 
    FLETCHER SCHOOL OF LAW AND DIPLOMACY, TUFTS UNIVERSITY, 
                          MEDFORD, MA

    Admiral Stavridis. Chairman McCain, Ranking Member Reed, 
members of the committee, it is a delight to be back with you. 
Last time I was dressed somewhat more glamorously than I am 
today. It is a pleasure to share some ideas and thoughts on the 
situation in Europe, which have, as we heard in those 
statements from the chairman and the ranking member, have taken 
a turn for the worse in a security dimension over the last 24 
months since I left my post as the Supreme Allied Commander.
    I want to just begin by saying, why does Europe matter? I 
get that question. Does Europe really matter for the United 
States? We talk a lot about a pivot to the Pacific and so on, 
and we should globally. But I would argue Europe matters for a 
wide variety of reasons.
    First and foremost, we share enormous values, our values: 
democracy, liberty, freedom of speech, freedom of religion. 
These come from Europe, from the Enlightenment. Second, NATO, 
this alliance, 28 nations, 52 percent of the world's GDP, 3 
million men and women under arms, almost all of them 
volunteers, 24,000 military aircraft. This is a terrific 
partner for the United States in Europe. Third, the bases. 
Sometimes people will say, oh, those are Cold War bases. Not so 
in my view. These are forward-operating stations of the 21st 
century. We need them to move our forces into Africa, into the 
Levant, into the Middle East, into Central Asia. They are 
irreplaceable.
    Fourth, the economy. The largest trade flow in the world 
goes across the Atlantic. It is about $5 trillion. So, this 
economic bridge across the Atlantic is of enormous importance 
to us. Then finally, as we look at Europe, it is a place full 
of high tech, of well-trained military. It is a wealth of 
resources. So for all those reasons, Europe matters.
    I think the challenges were well laid out by the chairman 
and the ranking member. It is Russia which has invaded a nation 
and annexed its territory. We cannot understate the gravity of 
that experience, and we should not understate how that ghost 
rattles through the Europe zeitgeist.
    The ranking member, I think, correctly drew a line under 
ISIS [the Islamic State of Iraq and Syria] and its threat to 
Europe. I am deeply concerned about it not only across the NATO 
borders in Turkey, but across the sea routes from Italy. Last 
year, some 200,000 migrants; this year on track to double that. 
Within those numbers will be some group of violent extremists, 
Islamic radicals who come to strike at highly symbolic targets, 
probably starting in Italy. The Arctic was well covered by the 
opening statements.
    I would add only the Balkans, which we tend not to think 
about a great deal these days. They were a place of great 
tension and danger 15 years ago, yet today tensions continue in 
Kosovo, across its borders to Serbia, and, most notably, in 
Bosnia, a very fragile tripartite structure. Yesterday Muslim 
extremist terrorists struck in the Serbian portions of Bosnia. 
That is still a place where we need to keep a weather eye.
    So I will close by saying as we look at all this, our own 
U.S. security presence in Europe is diminished greatly, 
certainly since the end of the Cold War. We are down 75 percent 
in personnel. We are down 75 percent in the number of bases 
that we have. We have, in my view, come to a line that we 
should not continue to diminish that presence further. I would 
argue in the end we need to stay engaged in Europe for the 
reasons about which I have spoken as well as for the challenges 
so well articulated by the chairman and the ranking member.
    Thank you.
    Chairman McCain. Thank you. Mr. Brzezinski?

 STATEMENT OF IAN J. BRZEZINSKI, RESIDENT SENIOR FELLOW, BRENT 
 SCOWCROFT CENTER ON INTERNATIONAL SECURITY, ATLANTIC COUNCIL, 
                         WASHINGTON, DC

    Mr. Brzezinski. Thank you, Chairman McCain, thank you, 
Ranking Member Reed, members of the committee. I really 
appreciate this opportunity to participate in this hearing on 
the state of U.S. security interests in Europe.
    NATO is the institutional cornerstone of transatlantic 
security, and today that alliance faces challenges on multiple 
fronts of unprecedented complexity and increasing urgency. To 
the east, Europe confronts Russia's invasion of Ukraine and 
increasingly provocative military conduct across the region. To 
its north, the transatlantic community faces Russia's 
militarization of the Arctic, a region rich in resources, but 
also of contested sovereignty. To its south, the alliance faces 
a treacherous combination of state sponsors of terrorism, 
failed states, and extremist organizations in an arc stretching 
from the Middle East across North Africa. ISIS atrocities and 
refugee flows to Europe are tragic manifestations of that 
front.
    In an age of globalization, NATO cannot afford to be a 
regionally focused alliance. It must address a global front. It 
must remain prepared and ready to take on challenges well 
beyond the North Atlantic area in a world that is increasingly 
interconnected and volatile.
    Allow me to focus my remarks on the first front, a sort of 
returning back to the future driven by Russia's confrontational 
approach toward the west. Putin's invasion of Ukraine has 
disrupted the order that has kept peace in Europe since World 
War II. It is a direct threat to the credibility of NATO and 
the vision of a Europe whole, free, and secure. It is but one 
element of a revanchist policy intended to reestablish Russian 
hegemony, if not full control, over space akin to the former 
Soviet Union.
    Toward this end, Moscow has applied the full suite of 
Russian power to weaken and dominate its neighbors: military 
force, economic and energy embargos, political subterfuge, 
information and cyber warfare, separatist groups, and frozen 
conflicts. The campaign history includes Moscow's attempt to 
subvert the 2004 Ukraine Orange Revolution, its 2007 
cyberattack on Estonia, and the 2008 invasion of Georgia.
    It is a campaign that pursues 20th century objectives 
leveraging 21st century techniques, and old-fashioned brute 
force. It rests on a $750 billion defense modernization plan 
that is upgrading Russian conventional and nuclear forces. It 
is a strategy that involves provocative military actions beyond 
Ukraine intended to intimidate, divide, and test the 
capabilities of members and partners of the NATO alliance. You 
know well these actions: the increase in assertive naval and 
air patrols; violations of allied and partner sea, air, and 
ground space; harassment of military and civilian aircraft and 
ships; and a steady stream of nuclear threats from Russian 
officials, including President Putin himself.
    Russian military exercises have been an important part of 
these shows of force. They are notable for their magnitude and 
the frequency of spot exercises, sudden and unannounced 
mobilization deployment of forces. As indicated in the attached 
chart and the ones I think are in the testimony I submitted, 
over the last 3 years Russia has conducted at least 6 major 
military exercises, and these have ranged from 65,000 personnel 
to 165,000 personnel. They dwarf in comparison to the size of 
NATO exercises, and raise in my mind questions about the 
alliance's political and operational ability to mobilize 
comparable forces.
    The west's response to Russia's military assertiveness has 
consisted of limited, incremental escalations of economic 
sanctions and military deployments. This incrementalism conveys 
hesitancy and the lack of unity and determination. It has 
failed to convince Putin to reverse course. Indeed, it may have 
actually emboldened him. For these reasons, continued 
incrementalism not only promises continued conflict in Ukraine, 
but also an increased danger of wider war.
    This is underscored when one considers what will be the 
likely state of Ukraine and Russia if the west holds to its 
current policies. Where will Ukraine be in 6 to 12 months? It 
is likely to experience a further loss of territory. Its 
economy will be further crippled. Its population and government 
will be at risk of being more disillusioned. This is a Ukraine 
more vulnerable and more enticing to Putin's revanchist 
ambitions.
    Where will Russia be in 6 to 12 months? Its economy will 
likely be somewhat weaker, its leaders marginally more 
internationally isolated. Under such circumstances, President 
Putin can be expected to be more irrationally nationalist and 
more brazen. That is a Russia more likely to attempt incursions 
further into Ukraine and escalate its provocative military 
actions against the west. Under such a scenario, not only are 
Ukraine's prospects more dire, the prospects of a collision, 
albeit inadvertent, between Russian and western forces are 
increased. The very risk of conflict escalation that current 
policy has been designed to avert will actually be more likely.
    Calibrated engagement with the Russian government is needed 
to explore avenues by which to modulate tensions and to return 
to Ukraine's territories. However, to be effective these 
efforts will require more immediate and longer-term initiatives 
that will impose higher economic costs on Moscow, deter it from 
further provocative conduct, and reinforce the security of 
Central Europe. Toward these ends, I recommended that U.S. 
policy aim to do the following. First, we should impose 
stronger economic sanctions on Russia. Sectorial sanctions are 
needed to more aggressively shock the Russian economy by 
shutting off its energy and financial sectors from the global 
economy.
    Second, the alliance should do more to reinforce NATO's 
eastern frontier. I believe the alliance should station a 
brigade-level combat capability permanently in Poland and 
Romania. It should station battalion-level capabilities in each 
of the Baltic states, and it should provide NATO's military 
commander, SACEUR [the Supreme Allied Commander Europe], the 
authorities necessary to deploy forces in real time in response 
to provocative military actions. NATO has never responded to 
any of the exercises and provocative actions I mentioned. It 
has been passive.
    More has to be done to reinforce Kiev's capability for 
self-defense. The deployment of U.S. and allied military 
trainers is a good step that occurred this last month, but it 
is overdue. The west should also arm Ukraine with air defense 
and anti-tank weapons and other capabilities it has been 
requesting so it can better defend itself. The west should 
deploy intelligence and surveillance capacities to Ukraine to 
enhance Ukraine's situational awareness, and it should conduct 
military exercises in Ukraine just as EUCOM [United States 
European Command] did last summer to help train Ukraine's armed 
forces, and to demonstrate the west's solidarity with Ukraine.
    None of these recommendations present a territorial threat 
to Russia. They would help erase the red line the west has 
allowed Russia to redraw in Europe. They would present Moscow 
the possibility of a costly and prolonged military conflict. 
Let me add, the United States should be also front and center 
with the Europeans in the negotiations addressing Russia's 
invasion of Ukraine. Washington's absence from the Minsk 
process is a clear opportunity cost in the effort to bring this 
conflict to a peaceful and just end.
    Fourth, similar security assistance should be offered to 
other countries threatened by the shadow of Putin's assertive 
policies. Here I am thinking particularly of Moldova and 
especially of Georgia because of its strategic location. 
Finally, the west needs to reanimate the vision of a Europe 
whole and free. Because of NATO enlargement, Europe has been 
better able to manage the aggression the continent has 
experienced over the last year. We need to ensure the 
alliance's open door policy has not devolved into a passive 
phrase or empty slogan.
    Let me close by a simple point--with a simple point. The 
most effective way to counter hegemonic aspirations is to deny 
them the opportunity for actualization. Security in Central 
Europe is critical not only for peace in Europe, it is also a 
key element of an effective strategy to forge a normal 
relationship, if not eventually a partnership, with Russia.
    Thank you.
    [The prepared statement of Mr. Brzezinski follows:]

                  Prepared statement of Mr. Brzezinski
    Chairman McCain, Ranking Member Reed, Members of the Committee, I 
am honored to speak at this hearing on the state of U.S. security 
interests in Europe.
    We meet today some eight months after the September 4, 2014 NATO 
summit in Wales, United Kingdom. That meeting of Allied heads of state 
proved to be an important inflection point for the Alliance. When 
planning for that summit began, its primary objective was to mark the 
end of NATO's combat operations in Afghanistan. Some were even 
concerned about the future relevance of NATO, anticipating that it was 
about to enter a period of unprecedented operational inactivity 
following decades of defending against the Soviet Union, managing 
conflict in the Balkans, and, more recently, contributing to out-of 
area undertakings in Afghanistan and even Iraq.
    Instead, the Alliance's agenda that Fall was dominated by events 
that most policy-makers on both sides of the Atlantic failed to 
anticipate. These, of course, include Russia's invasion of Ukraine and 
the sudden and bloodthirsty rise of ISIS in Syria and Iraq.
    A read of the summit communique reflects other challenges 
confronting the Alliance: missile proliferation, chaos in Libya, crises 
in Mali and the Congo African Republic, threats to the global commons--
including its cyber and maritime domains, and Iran's nuclear program, 
among others.
    That list gives real credence to former NATO Secretary General Fogh 
Rasmussen's repeated assertions that we face a more connected, more 
complex, more chaotic and more precarious world. He is right. In this 
world, the political and military capacities that NATO can leverage has 
become only more vital to the shared interests and values that define 
the transatlantic community.
    I would like today to focus on four urgent and emergent fronts 
before the NATO Alliance:
    <bullet>  An Eastern Front driven by a Russia's provocative 
military actions;
    <bullet>  An emergent Arctic Front driven by Moscow's 
militarization of the High North;
    <bullet>  A Southern Front, a region stretching from Iran across 
the Middle East and North Africa wrought by a dangerous combination of 
failed states and extremist organizations; and,
    <bullet>  A Global Front defined by the upheaval generated by the 
rapidly evolving dynamics of globalization.
            the eastern front: russia's invasion of ukraine
    Let me start with the front that is sort of a return back to the 
future. Fourteen months ago, President Putin launched his invasion of 
Ukraine with the incursion of 20-30,000 Russian troops into the Crimean 
peninsula. That was followed by the cross-border operation into Eastern 
Ukraine involving Russian provocateurs and Special Forces who seized 
buildings and armories and terrorized the local population. The latter 
were soon reinforced by Russian conventional forces. Both operations 
were backed by the massing of Russian conventional forces on Ukraine' 
border, under the guise of a 150,000 man military exercise.
    Russia's invasion caused over 6000 Ukrainians deaths in eastern 
Ukraine and displaced over 1.6M people. More than 20% of Ukraine's 
industrial capability has been seized or destroyed. Crimea and regions 
of Donetsk and Luhansk remain occupied and are being politically 
purged. Russia is reinforcing its presence in Crimea with Special 
Forces, aircraft, and ships and has announced plans to deploy nuclear 
capable SS-26 Iskander missiles. In Eastern Ukraine where fighting 
continues, Putin violates the Minsk II peace accords by deploying 
additional heavy combat equipment, personnel and military supplies to 
his forces.
    Russia's aggression against Ukraine presents a significant 
challenge to the security and stability of Europe and to the 
credibility of NATO. As an unprovoked aggression against the 
territorial sovereignty of a European nation, the invasion of Ukraine 
disrupts the order that has kept peace in Europe since World War II. By 
asserting the unilateral right to redraw borders on the grounds he is 
protecting ethnic Russians and by promoting the concept of a 
``Novorossiya,'' Putin has reintroduced the principal of ethnic 
sovereignty, a principal that wrought death and destruction across 
Europe in the last century and those before.
    Putin's invasion of Ukraine, one motivated significantly by his 
opposition to the country's long-standing desire to be a fully 
integrated part of Europe, is a direct threat to the vision of a Europe 
whole, free and secure. If allowed to succeed, Putin's invasion of 
Ukraine will create a new confrontational divide in Europe, between a 
community defined by self-determination, democracy, and rule of law and 
one burdened by authoritarianism, hegemony and occupation. In these 
ways, Putin's aggression against Ukraine - and his increasingly 
provocative military actions elsewhere in Europe - are direct 
challenges to NATO and U.S. leadership, ones intended to portray the 
Alliance and Washington as lacking the diplomatic, economic, and 
military capacity to counter Russian power.
    Putin's Revanchist Ambitions: The invasion of Ukraine is but one 
element of a revanchist policy that President Putin has articulated and 
exercised since taking office in 1999. His objective has been to 
reestablish Russian hegemony, if not full control, over the space of 
the former Soviet Union.
    Toward this end, Moscow has applied the full suite of Russian power 
to weaken and dominate its neighbors: economic embargoes, political 
subterfuge, information and cyber-warfare, separatist groups, frozen 
conflicts as well as military shows of force and incursions. Putin's 
campaign history includes Moscow's attempt to subvert Ukraine's 2004 
Orange Revolution, the 2007 cyber attack against Estonia, the 
separatist movement in Moldova, energy embargoes against Lithuania and 
Ukraine, and the 2008 invasion of Georgia.
    President Putin's strategy is one that pursues 20th-century 
objectives through 21st-century techniques and old-fashioned brute 
force. With regard to the latter, Russia has undertaken a determined 
modernization of its armed forces. Some $750B has been dedicated over 
this decade to expand the Russian fleet, introduce 5th generation 
aircraft, deploy new missiles, modernize his nuclear arsenal, increase 
his nation's SOF capabilities, and militarize the Arctic. When one 
compares the Russian forces that invaded Georgia in 2008 to those that 
led the invasion of Crimea last year, the modernization campaign is 
clearly yielding improved capabilities.
    As part of his strategy, Putin has deployed his military forces in 
provocative ways across the Baltic region, the Black Sea, the Arctic 
and elsewhere to demonstrate capability, intimidate and divide Russia's 
neighbors, and probe the resolve of the West. These actions have 
steadily escalated over time, and include challenges to the airspace of 
Sweden, the cross-border seizure of an Estonian law-enforcement 
officer, harassment of military and civilian aircraft and ships in the 
Baltic and Black Seas, and an exponential increase in assertive air and 
sea patrols by Russian aircraft and ships on both sides of the 
Atlantic.
    Russian military exercises have been an important part of these 
shows of force and are notable for their magnitude and for the 
frequency of ``spot'' exercises - the sudden and unannounced 
mobilization and deployment of forces. As indicated in the attached 
chart, over the last three years, Russia has conducted at six major 
military exercises involving between 65,000 and 160,000 personnel. In 
comparison, these dwarf the size of NATO and Allied exercises, and 
raise questions about the Alliance's comparable ability to mobilize 
comparable forces in no-notice situations.
    Russia's assertive military conduct has been complemented by an 
increase in nuclear threats against the West made by senior Russian 
commanders and civilian officials, including President Putin. In the 
last several weeks, Moscow threatened to target Romania, Poland and 
Denmark with nuclear weapons for their contributions to transatlantic 
missile defense. The Times of London recently reported that in a 
meeting with U.S. officials, Russian generals threatened ``a spectrum 
of responses from nuclear to non-military'' if the Alliance deployed 
additional forces to the Baltic states.
    The West's Response: To date, the West's response to Russia's 
territorial aggression and provocative military actions consists of 
limited incremental escalations of economic sanctions and military 
deployments. The failure of this response to convince Putin to reverse 
course is rooted in this incrementalism which communicates hesitancy 
and a lack of unity and determination. Indeed, it may have actually 
emboldened Putin. Today, Moscow's provocative exercises and assertive 
military conduct continue, Crimea and Eastern Ukraine remain occupied, 
and Russia's forces appear poised to strike deeper into Ukraine.
    Calibrated engagement with the Russian government is needed to 
explore avenues by which to modulate tensions and return to Ukraine its 
territories. However, to be effective these efforts will require more 
immediate and longer-term initiatives that will impose economic costs 
on Russia, deter Moscow from further provocative conduct, reinforce 
Central and Eastern Europe's sense of security, enhance Ukraine's 
capacity for defense, and help it transform into a successful, 
democratic, and prosperous European state. These include:
    1) Stronger economic sanctions on Russia. The current approach of 
targeting specific Russian individuals and companies has not changed 
Putin's course of action, not is it likely to do so. Russia is a 
country that rightfully takes great pride in its history of enduring 
economic and military hardship. An authoritarian regime will always be 
more resistant to economic sanctions than a democratic system. Sectoral 
sanctions are needed to more aggressively shock the Russian economy by 
shutting off its energy and financial sectors from the global economy.
    2) Stronger reinforcement of NATO's eastern frontier. Russia 
repeatedly mobilized ten of thousands of troops for its invasion of 
Ukraine and in its shows of force. NATO's response has been far more 
limited, involving dozens of aircraft, company level deployments (and 
the occasional battalion) and a few ships. The gap is noticeable to 
Putin, our Allies and our partners. The Alliance should:
    <bullet>  Base a brigade level combat capability permanently to 
Poland and Romania;
    <bullet>  Base battalion level capacities to each of the Baltic 
states;
    <bullet>  Provide NATO's top military commander, the Supreme Allied 
Commander Europe, authorities necessary to deploy forces in real time 
against provocative Russian military operations; and,
    <bullet>  Expand the mission of NATO missile defense and the U.S. 
European Phased Adaptive Approach (EPAA) to address the threat posed by 
Russian ballistic missiles
    3) Military Assistance to Ukraine: Greater effort must be made to 
reinforce Ukraine's capability for self-defense. By denying Kyiv's 
request for needed military weapons, the West not only precludes 
Ukraine the ability to better defend itself, it is de facto accepting 
Putin's effort to draw a new red line in Europe, allowing the 
reemergence of a grey zone in Europe.
    This has been deeply disillusioning for Ukrainians who so 
courageously expressed their desire on the Maidan for freedom and a 
place in Europe. It threatens to shatter the bipartisan/transatlantic 
vision of a Europe whole, free and undivided that has guided U.S. and 
European security policy for the last 25 years.
    The United States and other keys allies are to be commended for the 
long-overdue step of deploying military trainers to Ukraine, but they 
should also:
    <bullet>  Provide military equipment to Ukraine, including air 
defense and anti-tank weapons as well as key enablers, such as drones, 
that would enhance Ukraine's ability to leverage the capabilities of 
its armed forces
    <bullet>  Deploy intelligence and surveillance capabilities
    <bullet>  Conduct military exercises in Ukraine, as EUCOM did in 
the Summer of 2014, to help train Ukraine's armed forces and to 
demonstrate solidarity with Ukraine
    None of these recommendations would present a territorial threat to 
Russia, but they would complicate Putin's ambitions regarding Ukraine. 
They would help erase the red line that Moscow has been allowed to 
redraw in Europe. They would assure Ukrainians that they are not alone 
and demonstrate that Putin is unable to intimidate the West. They would 
present Moscow the possibility of a costly and prolonged military 
conflict.
    The United States should also be front and center with the 
Europeans in the negotiations addressing Russia's aggression against 
Ukraine. The absence of the United States at the negotiating table 
signals a lack of commitment to European security and thus devalues the 
presentation of transatlantic solidarity against this invasion. It has 
been an opportunity cost to the effort to bring this conflict to 
peaceful and just end.
    4) Support to Ukraine's economic transformation. In this regard, 
the United States and the West has been constructive, providing 
significant EU, IMF, and bilateral economic assistance packages. 
However, the goals of such economic assistance are difficult if not 
impossible to realize when Ukraine is subject to a violent invasion as 
well as to political, economic and other pressures from Russia.
    5) A Reanimation of the Vision of Europe Whole and Free: For much 
of the post-Cold War period, U.S. policy was clearly guided by the 
vision of a Europe, undivided, secure, and free. For over two decades, 
Washington wisely supported the indigenous ambitions of Central 
European democracies for membership in NATO and the European Union. 
Those processes of enlargement have benefited all parties in Europe, 
expanding the zone of peace, stability, and prosperity across the 
continent.
    The United States needs to reanimate the process of NATO 
enlargement, making clear that the Alliance's ``open-door policy'' for 
membership is no passive phrase or empty slogan. Doing so would be an 
important way to underscore Washington's commitment to the security of 
Central and Eastern Europe. For these reasons, no decision or 
recommendation should be permitted or advanced that would in any way 
limit its applicability to any country of Europe, including Ukraine.
    The Risks of Incrementalism: There are real risks that flow from 
the West's current strategy of incrementalism against President Putin's 
aggression: Continued incrementalism not only promises continued 
conflict in Ukraine but also an increased danger of wider war.
    This is underscored when one considers what will be the likely 
state of Ukraine and Russia if the West holds to its current course.
    What will be the state of Ukraine in 6-18 months? It is likely to 
experience a further loss of territory. Its economy will be further 
crippled, thereby rendering the nation less able undertake reform. Its 
population is at risk of being more disillusioned, and government 
consequently weaker, if not divided. That is a Ukraine more vulnerable 
and more enticing to Putin's revanchist ambitions.
    What will be the state of Russia in 6-18 months? Its economy will 
likely be somewhat weaker, if it is not bolstered by a rise in energy 
prices. It may be marginally more isolated. Under such circumstances, 
President Putin can be expected to be more irrationally nationalistic 
and more brazen. That is a Russia more likely to attempt incursions 
further into Ukraine and escalate its provocative military actions 
against the West.
    Under such a scenario, not only are Ukraine's prospects more dire, 
the prospects of collision, albeit inadvertent, between Russian and 
Western forces are increased. The very risk of conflict escalation that 
the current policy has been designed to avert will be more likely.
                      the artic: an emerging front
    The resource rich Arctic has become a high priority of President 
Putin's security policy. Russia's ensuing militarization of the High 
North has made it an emergent front affecting transatlantic security.
    Moscow has established an Arctic Military command backed by a joint 
Arctic task force. It has re-opened Cold War naval and air bases and is 
building a string of new military facilities across the Arctic. It is 
reinforcing the Northern Fleet with more ice-breakers, surface 
combatants and submarines. Russia has stepped-up Cold War military 
operations in the region, including the testing of missiles and 
aggressive naval and air patrols that prod the territories of the U.S. 
and other allies.
    Enhancing NATO's role in the Arctic: If the High North is to remain 
a zone defined by peace and stability, the West will have to introduce 
a more robust security dimension into its Arctic policies, and a 
centerpiece of that effort should include a greater role for NATO. 
Indeed, as more non-Arctic nations start to operate in the Arctic, it 
will be useful to leverage the geopolitical weight that comes with a 
community of like-minded North Atlantic democracies.
    NATO should expand its political and operational role in the 
Arctic, leveraging its maritime and air capacities. The Alliance can 
serve as a useful vehicle to coordinate and execute Arctic security 
cooperation, including intelligence exchanges, surveillance operations, 
military training and exercises, air policing, and disaster response. 
It can also foster the development of capabilities necessary for Arctic 
operations.
    In these ways, NATO can fill a security gap that exists in the 
Arctic and do so without undermine existing useful institutions like 
the Arctic Council. This does not preclude Arctic cooperation with 
Moscow, particularly in areas such as search and rescue and disaster 
response. Indeed, the region can serve as an avenue of mutually 
beneficial engagement with Russia, even in this time of increased 
tension.
    The bottom line is that if the Alliance plays a greater role in 
Arctic security today, the transatlantic community is going to be able 
to manage, if not prevent, a serious security crisis tomorrow.
      the southern front: failing states and ideological upheaval
    NATO faces a Southern front--an arc of instability stretching from 
Iran to the shores of North Africa. It is a realm in which societal 
upheavals and regional power struggles have generated challenges of 
varying levels of urgency--from Tehran's nuclear programs, to the chaos 
traumatizing Syria and Iraq to the tragic flood of refuges flowing to 
Europe from Africa and Middle East.
    Among the more urgent of these crises lies south of Turkey, caused 
by the sudden and savage rise of ISIS in Syria and Iraq. Because of the 
links of ISIS and other violent groups in this region to Europe and 
North America, this is an urgent threat to transatlantic security. The 
West's goal must be more than the degradation or destruction of ISIS 
and other like-minded groups. It must be the prevention of Iraq, Syria 
and other areas from serving as havens and breeding grounds for such 
extremism. That is going to require a comprehensive, long-term strategy 
that will require considerable military, economic and political 
resources.
    That response will have to be a multi-lateral undertaking and not 
just transatlantic undertaking. It must executed in partnership with 
key powers of the Muslim world--Turkey, of course, but also Jordan, 
Egypt and Saudi Arabia, in addition to Iraq and moderate elements 
within Syria. It should leverage the various capacities of NATO, the 
European Union, the Gulf Cooperation Council, and the Arab League, 
among others. Only then will one be able to leverage the cumulative 
strengths of the West and mitigate the historic baggage many Allies 
have in the region.
    It will require sustained military action and security assistance. 
The tip of the spear addressing threats like ISIS has to be local 
forces. The Iraqi security forces, the Peshmerga, and moderate Syrian 
factions stand among these elements, but they will need to be backed by 
foreign airpower, reinforced by foreign equipment, intelligence, combat 
advisors and trainers as well as special forces prepared for direct 
action.
    The multi-lateral effort will require significant humanitarian 
assistance. This is needed to assist not just those displaced in Iraq, 
but also to assist the governments of neighboring countries--
particularly Turkey and Jordan--whose state structures and societies 
are at risk of being overburdened, if not destabilized, by refugees 
fleeing the region's violence.
    The strategy will have to include a long-term effort to help enable 
the crippled states and societies of Europe's North African and the 
Middle Eastern periphery to benefit from economic growth and sound 
governance. Those are the most powerful weapons against extremism. 
Military strikes and humanitarian assistance may often be required, but 
they are tactical actions, necessary but not sufficient to tackle a 
strategic problem. Good governance and prosperity are ultimately the 
best ways to ensure that these societies do not serve as breeding 
grounds for extremism and terrorist recruits.
                            the global front
    These aforementioned three fronts to Europe's East, North and South 
are affected by a fourth NATO front--the front generated and sustained 
by the dynamics of globalization.
    Globalization clearly has it is positive sides. Advances in 
transportation and communications have facilitated the spread of 
prosperity, respect for human rights, and democratic principles of 
governance, among other positive attributes of modernity.
    However, these benefits have also been accompanied by challenges. 
The proliferation of weapons technologies and the emergence non-state 
actors with global reach--such as ISIS, al Qaeda and others--constitute 
some of the threats facilitated by globalization.
    The profusion of communications technologies, a key dynamic of 
globalization, contributes to what Zbigniew Brzezinski (my father) 
calls a global political awakening that has been evident in the velvet 
revolutions of 1989, the orange revolution in Ukraine, and the Arab 
Spring.
    Communication technologies are empowering societies in ways can 
bring down dictators, end corrupt autocracies, and create opportunities 
for democracy, reform and accountability in government. However, a 
political awakening can also be an impatient force, one prone to 
destructive violence when it is driven primarily by sentiments flowing 
from inequity and injustice and lacks leadership with a platform of 
clear objectives. In those cases, societies are often left vulnerable 
to organized groups leveraging dangerous ideologies.
    Another key dynamic of globalization has been a profound shift in 
the global balance of power. A more complex constellation of actors 
with global reach and ambitions is emerging. These include China, 
India, and Brazil, and could well include others in the future.
    As a result, we are entering a world where the predominance of the 
United States, even in collusion with Europe, is not what it was in the 
past. The emergence of new powers with regional, if not global, 
aspirations is often accompanied by territorial claims, historic 
grudges, and economic demands that can drive geopolitical tension, 
competition and collision.
    Together these three dynamics increase the likelihood of regional 
conflicts. They make consensual decision-making more difficult among 
nation states, including within NATO, and they yield a world that is 
more volatile and unpredictable.
    Many of these tensions and collisions are and will occur both near 
and far from the North Atlantic area, but in an age of globalization 
their economic and security implications can be immediate to both sides 
of the transatlantic community.
    These global challenges make it all the more important for the 
transatlantic community to work together on all fronts. A vital 
underpinning of the NATO Alliance in this new century is the 
Transatlantic Bargain, one in which the United States sustains its 
commitment to European security and in return our Allies remain 
steadfast in their commitment to address with the United States threats 
and challenges that emanate from well beyond the North Atlantic area.
    Protecting and promoting transatlantic security and values amidst 
these four NATO fronts--the East, the Arctic, the South and the 
challenges of global upheaval--stand among the defining challenges of 
our time. They present complex, long-term and costly undertakings that 
require:
    <bullet>  Economic resources that can be readily mobilized to in 
times of crisis and dedicated to economic development;
    <bullet>  Military capabilities that are expeditious and can be 
readily integrated with civilian efforts; and,
    <bullet>  Political legitimacy that is optimized through 
multilateral versus unilateral action.
    In each of these requirements, the transatlantic community is 
preeminent. Its economies account for over 50% of the global GDP--some 
five times that of China and fourteen times that of Russia. Its 
military establishments are second to none, and NATO remains the worlds 
most successful and capable military Alliance
    Above all, the transatlantic community presents a collective of 
likeminded democracies--and herein lies a vision for its role in the 
global order of today and tomorrow: NATO can and should serve as the 
core of a geographically and culturally expanding community of 
democracies that act collectively to promote freedom, stability and 
security around in what is an increasingly dynamic globalized 
environment. But it will require all of us to do more together.

    Chairman McCain. Thank you very much. Dr. Sestanovich?

   STATEMENT OF STEPHEN SESTANOVICH, Ph.D., GEORGE F. KENNAN 
  SENIOR FELLOW FOR RUSSIAN AND EURASIAN STUDIES, COUNCIL ON 
                       FOREIGN RELATIONS

    Dr. Sestanovich. Chairman McCain, Senator Reed, members of 
the committee, thank you for today's opportunity to join your 
discussion.
    Admiral Stavridis gave a number of reasons why Europe 
matters. I agree with him. I would add one more: what it can 
contribute to the global balance of power. A united west can 
have more confidence in our ability to defend our interests 
worldwide. Divided we can be much less sure.
    The past year has been a frustrating one for anyone trying 
to anticipate Russian moves. Time and again, many of us failed 
to gauge Vladimir Putin's motives. Often we thought he would be 
ready to unwind this crisis when he was just about to double 
down. He made promises that he did not keep and created a 
powerful case for western sanctions. Putin has personally 
antagonized American and European leaders in a manner that has 
few precedents in the history of Russia's relations with the 
west.
    After a year like this, where do we stand and what should 
we think? I would like to focus on four issues that have 
produced considerable debate. They bear directly on choices 
that your committee must make. First is the question of Putin's 
aims and calculations; second is the effectiveness of 
sanctions; third is the question of helping the Ukraine 
military; and finally a fourth, fear of where this 
confrontation is heading. Many people worry that Putin will 
turn against neighbors especially our Baltic allies.
    Our debate on all of these issues has brought many truths 
to the surface, but I think we have not got the whole story. To 
develop the right strategy, we need a fuller picture. First, on 
the nature of Putin's commitment to this--your phrase, Senator, 
was neo-imperialist policy. We should neither minimize nor 
exaggerate it. When separatist forces were about to be defeated 
by the Ukrainian army last summer, we saw that Putin was not 
prepared to let that happen, but he was also unwilling to 
deploy large Russian units into Ukraine to defend the 
separatists.
    Why do he and his associates lie about having troops there 
and about the casualties that they have taken? Because neither 
foreign nor domestic audiences would be happy with the truth. 
Putin's actions to date do not tell us what his future aims 
will be. Saving the separatists and himself from defeat does 
not mean that he is prepared to back them as they try to take 
more territory. We know they want to do so. They are completely 
open about this. But we should not assume that Putin will pay 
any price to support them. We should not assume that Putin 
cannot be deterred. Many people think he cannot be. This is a 
misunderstanding.
    Second, about sanctions, Putin and sophisticated Russian 
economists are not of one mind about the impact that sanctions 
have had. Some call it marginal. Others consider it 
significant. But no one denies that sanctions have had some 
impact or that over the past year Russia's economic outlook has 
deteriorated. The only question is whether sanctions affect 
Russian actions on the ground. I believe sanctions do affect 
policy. Putin may well hope that if fighting in Eastern Ukraine 
stays below the peaks it reached last year, the west will start 
to roll back sanctions. There are many indications of this.
    But he must also know that if fighting increases, new 
sanctions are likely and a rollback will be impossible. It is 
hard for me to believe that this awareness does not constrain 
Russian support for separatist leaders, and we should make 
clear how high the cost will be of further enlargement of the 
separatist enclaves.
    Third is the much disputed issue of whether and how to 
support the Ukrainian military. A sudden infusion of western 
arms will not turn the tide when fighting is in full swing. It 
might even lead Russia to escalate its own involvement. Those 
have been reasons that many have brought forward not to provide 
lethal assistance to the Ukrainian military. But the problem 
that the United States and its allies face now is somewhat 
different. Their primary goal, as I said a moment ago, is to 
keep the separatist enclaves from becoming a larger part of 
Ukraine. Our goal now should be to deter a new wave of violence 
in Ukraine, and in particular an effort by separatists to 
expand their holdings.
    That is a goal that western military aid can help to 
achieve. Without its separatist enclaves, Eastern Ukraine will 
grow. The country's political and economic disintegration will 
continue, and Russia's involvement will increase. We have to be 
smart about strengthening Ukraine's army, and we have to be 
careful, but a Ukraine that can defend itself is essential to a 
strategy of restabilization. Expecting the conflict in the East 
to freeze itself is wishful thinking.
    Finally, about where Putin will strike next. His Ukrainian 
policy is a threat to the security of NATO members. The 
alliance has been right to reinforce and reassure frontline 
states, and it must do more. We cannot afford the luxury of 
unpreparedness. All the same, as long as the Ukrainian crisis 
continues, my judgment is that Russian military pressure 
against other neighbors is remote. Being bogged down in Ukraine 
makes it harder for Putin to pick other fights, yet the 
unfolding conflict in Ukraine will surely affect his calculus 
down the road. If Putin emerges the victor in this conflict, if 
a pro-western government is kept from succeeding, if Russia's 
nationalist mood deepens, if the rich and powerful countries--
democratic countries of Europe and the United States fail to 
stay the course, if this is where we end up, Putin will draw 
his own conclusions. The Putin we face in the future could be 
even more dangerous than the one we face today, both for his 
neighbors and for us.
    Thank you, Mr. Chairman. I look forward to our discussion.
    [The prepared statement of Dr. Sestanovich follows:]

               The prepared statement of Dr. Sestanovich
    Chairman McCain, Senator Read, members of the Armed Services 
Committee: Thank you for today's opportunity to discuss Russia's 
confrontation with the West over Ukraine. This is a subject of 
fundamental importance for the future of European--and indeed global--
security.
    The past year has been a frustrating one for both policymakers and 
policy analysts--in fact, for anyone trying to anticipate Russian 
moves. Time and again, many of us failed to gauge Vladimir Putin's 
motives. Often we thought he would be ready to unwind the crisis when 
he was actually about to double down. He made promises that he did not 
keep and created a powerful case for Western sanctions. Putin has 
personally antagonized European and American leaders in a manner that 
has few precedents in the history of Russia's relations with the West.
    After a year like this, where do we stand and what should we think? 
I'd like to focus on four issues that have produced considerable 
debate. They bear directly on choices that your committee must make.
    <bullet>  First is the question of Putin's aims and calculations. I 
often hear it said that he cares more than we do about Ukraine. Because 
he feels that the stakes for Russia are high, he may be hard to deter.
    <bullet>  Second is the effectiveness of sanctions. Many say these 
have not worked well. Putin, we hear, will not be swayed by economic 
pressure; he has convinced the public that Russia must not be pushed 
around.
    <bullet>  A third much-debated issue has to do with helping Ukraine 
militarily. Giving arms, it is said, will only escalate the fighting--
and bolster Putin's claim that the West is seeking to bring Russia 
down.
    <bullet>  Finally, a fourth fear, about where this confrontation is 
heading. Many people worry that Putin will turn against other 
neighbors, especially our Baltic allies.
    There is a kernel of truth in each of these claims. But they do not 
tell the whole story. To develop the right strategy, we need a fuller 
picture.
    First, on the nature of Putin's commitment: we should neither 
minimize nor exaggerate it. When separatist forces were about to be 
defeated by the Ukrainian army last summer, we saw that Putin was not 
willing to let that happen. But he was also unwilling to deploy large 
Russian units in Ukraine to defend the separatists. Why do he and his 
associates lie about having troops there, and about the casualties they 
have taken? Because neither foreign nor domestic audiences would be 
happy with the truth.
    Putin's actions to date do not tell us what his future aims will 
be. Saving the separatists--and himself--from defeat does not mean he 
is prepared to back them as they try to take more territory. We know 
they want to do so; they are open about it. But we should not assume 
Putin will pay any price to support them.
    Second, about sanctions. Putin and sophisticated Russian economists 
are not of one mind about the impact that sanctions have had. Some call 
it marginal; others consider it significant. But no one denies that 
sanctions have had some impact, or that over the past year Russia's 
economic outlook has deteriorated. The only question is whether 
sanctions affect Russian actions on the ground.
    I believe sanctions do affect policy. Putin may well hope that, if 
fighting in eastern Ukraine stays below the peaks it reached last year, 
the West will start to roll back sanctions. But he must also know that, 
if fighting increases, new sanctions are likely and a rollback will be 
impossible. It is hard for me to believe that this awareness does not 
constrain Russian support for separatist leaders.
    Third is the much-disputed issue of whether and how to support the 
Ukrainian military. A sudden infusion of Western arms will not turn the 
tide when fighting is in full swing; it might even lead Russia to 
escalate its own involvement. But the problem that the United States 
and its allies face now is slightly different. Their primary goal 
should be to deter a new wave of violence and, in particular, an effort 
by separatists to expand their holdings.
    This is a goal that Western military aid can help to achieve. 
Without it, separatist enclaves in eastern Ukraine will grow, the 
country's political and economic disintegration will continue, and 
Russia's involvement will increase. We have to be smart about 
strengthening Ukraine's army, and we have to be careful. But a Ukraine 
that can defend itself is essential to a strategy of re-stabilization. 
Expecting the conflict in the east to freeze itself is wishful 
thinking.
    Finally, about where Putin will strike next: his Ukraine policy is 
a threat to the security of NATO members. The alliance has been right 
to reinforce and reassure front-line states, and it must do more. We 
cannot afford the luxury of unpreparedness.
    All the same, as long as the Ukrainian crisis continues, my 
judgment is that Russian military pressure against other neighbors is 
remote. Being bogged down in Ukraine makes it harder for Putin to pick 
other fights. Yet the unfolding conflict in Ukraine will surely affect 
his calculus further down the road. If Putin emerges the victor, if a 
pro-Western government is kept from succeeding, if Russia's nationalist 
mood deepens, if the rich and powerful democracies of Europe and the 
United States fail to stay the course--if this is where we end up, 
Putin will draw his own conclusions. The Putin we face in the future 
could be even more dangerous than the one we face today--both for his 
neighbors and for us.
    Thank you, Mr. Chairman. I look forward to our discussion.

    Chairman McCain. Well, thank you very much, and thanks to 
all the witnesses for their very important comments and, 
frankly, thought-provoking assertions. There is a Michael 
Gordon piece on April 22nd: ``In a sign that the tense crisis 
in Ukraine could soon escalate, Russia has continued to deploy 
air defense systems and built up its forces near the border.'' 
``This is the highest amount of Russian air defense equipment 
in Eastern Ukraine since August,'' Marie Harf, the State 
Department spokeswoman said. ``Combined Russian separatist 
forces continue to violate the terms of the Minsk II Agreement 
signed in mid-February.'' Of course we are seeing indications 
of renewed fighting, and there are many who believe that 
Mariupol is the next target for Vladimir Putin. It also seems, 
at least to this observer, that the price that Vladimir Putin 
has paid is not very high, and the benefit, at least in Russian 
public opinion, has been rather beneficial to him.
    Mr. Brzezinski stated in his prepared statement and verbal 
statement, ``We should provide military equipment, including 
air defense and anti-tank weapons, as well as key enablers, 
deploy intelligence surveillance capabilities, and conduct 
military exercises in Ukraine as EUCOM did in the summer of 
2014.'' Then in addition to that in your comments, Mr. 
Brzezinski, you said we should increase sanctions and have 
rapid response capability, and also assist other countries, 
specifically you pointed out Georgia.
    Admiral, do you and Dr. Sestanovich agree with those 
comments, Admiral, or do you want to add or subtract from those 
recommendations?
    Admiral Stavridis. I certainly would not subtract at all. I 
agree with them. I think that just to put specificity on it in 
terms of the aid, we ought to be providing lethal, in 
particular anti-tank weapons, anti-armor weapons. That is a 
very visible, relatively easy to operate, and sensible system 
in addition to all the other UAV and so forth, things we should 
do. I will add one other, which is cyber. We should be 
assisting the Ukrainians in cyber. They are under continuous 
attack.
    Chairman McCain. Dr. Sestanovich?
    Dr. Sestanovich. I am broadly sympathetic with those ideas. 
Let me mention, though, that I think in looking at the list of 
measures, we should focus primarily right now on steps that 
will increase the operational effectiveness of Ukrainian 
forces. I am not so sure that having exercises in Ukraine is 
going to do very much along those lines. I could be persuaded, 
but I would really want to focus on what you can do to increase 
the fighting capability of Ukrainian forces.
    I mention this for a reason that goes beyond just the 
deterrence factor and the ability to resist when separatists 
push out from where they are. I think it also affects the 
internal politics of Ukraine in an important way. If the 
Ukrainian government cannot hold the line against separatist 
offensives, they will lose ground--it will lose ground 
politically, and the people who will gain politically are the 
informal militias often with, to be honest, somewhat extreme 
ideologies and aims of their own. That is an outcome that will 
be terrible for Ukraine's future. So we are not looking simply 
to produce a military result by offering assistance to the 
Ukrainian military. We are trying to stabilize and support a 
democratic government.
    Second, I would add about sanctions. I think right now 
increasing sanctions is going to be a very heavy lift. The 
crucial aim has to be to prevent the rollback because that is 
actually a rather pressing danger right now.
    Chairman McCain. I agree, and as long as they are dependent 
on Russian energy, I do not think you are going to see. We 
forget Crimea. We forget the shoot-down of the Malaysian 
airliner, et cetera. Mr. Brzezinski, first of all, there is one 
other area, that is the intense propaganda campaign that Russia 
is waging in the Baltics in particular, but also Moldova and 
other countries. Do you have a response to that because I do 
not think, frankly, that our Radio Free Europe and other 
capabilities that we had during the Cold War is in the 21st 
century. I think it more like 20th century.
    My other question is, suppose the status quo remains and we 
do not implement the procedures that you and the other members 
of the panel have largely supported. What do you think Vladimir 
Putin's next move is? Is it Mariupol? Is it Moldova? Is it 
areas even further?
    Mr. Brzezinski. Thank you, Mr. Chairman. Regarding Russia's 
information campaign, they are crushing us. Russia spends 
billions of dollars in sending out cyber messages, TV messages, 
radio messages. It has lobbyists all over western capitals 
pushing out the Russian line, some of it accurate, some of it 
blatantly false. We have nothing in comparison, and I actually 
think this is where we need to go back to the Cold War and 
think about lessons learned.
    We actually had a very sophisticated information campaign. 
It was led by the U.S. Information Agency, an independent 
structure in the U.S. Government that actually was responsible 
for doing nothing but messaging, and it has separate offices in 
our embassies all around the world. That is the kind of level 
of effort that we are going to have to put into if we are going 
to counter this Russian information campaign, and it is a 
campaign that is going to have to be mirrored by our allies.
    Regarding Russia's next move, my sense is that Putin is 
just positioning himself as an opportunist. I was struck by how 
his strike, unsuccessful albeit, but his strike against 
Mariupol earlier this year coincided with the Greek elections 
because he clearly knew that the west was not going to really 
be able to develop the consensus necessary to respond 
forcefully to that violation of the Minsk Agreement. It was not 
going to be able to generate the consensus necessary to impose 
additional sanctions.
    So when I look down the road, I actually think that the 
most likely move by Putin will occur when there is another 
economic crisis or political crisis in the west or in Ukraine, 
and Putin will move quickly to seize and exploit that 
opportunity. I think it will be towards Mariupol if not all the 
way down towards Crimea. It is possible it could be other parts 
of Donetsk and Luhansk.
    A second contingency I keep my eyes on is Kharkiv. Kharkiv 
is the technological center of Ukraine famous for its aviation 
and aeronautics industry. There has been an ongoing campaign of 
terrorist attacks by Russian proxies, by Russian forces 
operating in that area, bombs going off in metro stops and 
such. So I think what is happening there is Russia is 
continuing to see they can soften up that region so it could 
become like another Luhansk.
    Looking beyond Ukraine, I am less worried about a strike 
against the Baltics, but more against Georgia. Why Georgia? 
Because Georgia is a weak state. It is a small state. We have 
precedent in 2008 of Russia trying to take over Georgia. Also 
Georgia is strategically important. It is the cork that goes 
into the Caspian Sea of oil and gas. It is the pathway for the 
southern corridor that is going to bring Caspian gas into 
Europe. If Putin really wanted to do something strategically 
significant to mitigate the southern corridor, well, you take 
Georgia and you shut down the southern corridor that way. That 
is what I keep my eyes on.
    Chairman McCain. Thank you. Senator Reed?
    Senator Reed. Well, thank you very much, gentlemen. One of 
the issues that arises along with sanctions is the declining 
price of oil because of, frankly, the actions of the Saudis. I 
might suggest it is more powerful than formal sanctions. There 
are some indications--I have spoken to Dr. Sestanovich before--
of the effect within Russia where there are strikes. They are 
building sort of. I think there is too much to suggest that we 
have reached a turning point, but there is some indications of 
turbulence because of this situation.
    So, Admiral and your colleagues, comment on the 
effectiveness of the sanctions, but also the effectiveness of 
continued low oil prices.
    Admiral Stavridis. I think Dr. Sestanovich has it about 
right. They are neither catastrophic nor are they de minimus. 
They are kind of in the middle. Mr. Brzezinski has it right in 
that if you really want to get attention with sanctions, there 
is another level you have to go to. He mentioned a couple of 
things. I would throw into the mix more targeted individual 
sanctions at high level individuals in the Putin circle.
    In terms of the oil pries, anything that depresses oil 
prices does, in fact, have, I think, perhaps a higher immediate 
effect than the sanctions. The two in combination are powerful, 
and I think over time will be possibly the way in which we 
finally get Vladimir Putin's attention.
    Senator Reed. Mr. Brzezinski?
    Mr. Brzezinski. Sir, my sense is that when we think of 
sanctions in the west, we have a terrible tendency to try to 
mirror our decision making and political processes upon Russia. 
You know, when Russia suffers--when we suffer a negative 1, 
negative half percent GDP growth, we have a political crisis. 
Governments fall. When Russia suffers negative 2 or negative 3 
percent growth, they look back on their history, a rich 
history, a proud history, of enduring great economic and 
military hardship: Napoleonic wars, Hitler's invasions, and 
such.
    They have a much heartier approach to economic endurance 
than we do, in part because of history, in part also because of 
the political structure. Russia is an autocracy. It is a one-
man state. Not a one-party state, a one-man state. It is much 
more capable of enduring that kind of hardship that comes with 
economic sanctions.
    I have to say, if I could, that when I think about our 
unwillingness to impose harsher sanctions, I am very, very 
surprised. It is rooted very much, I think, in Europe's 
unwillingness to suffer the blowback that would come with those 
sanctions. But if you look at the economic balance between 
Europe and Russia, between the west and Russia, it is pretty 
surprising.
    Senator McCain has described Russia as a $2 trillion gas 
station. Well, that $2 trillion gas station has one customer. 
It is the EU [European Union] primarily. The EU is a $12 
trillion economy. It is backed by a $16 trillion economy, the 
U.S. economy. How is it that a $2 trillion gas station is able 
to intimidate an economic entity, the EU and the United States, 
that is 15 times its size? I think that is rooted in strategy 
shortsightedness, I think more fecklessness, allowing the 
neighbor to be invaded and doing not as much as we could. To a 
certain degree, corporate greed, an unwillingness to take on 
the financial costs of what one needs to do for moral and 
strategic reasons.
    Senator Reed. Dr. Sestanovich?
    Dr. Sestanovich. There is no doubt that Russia is an 
autocracy, but I do not think we should exaggerate the 
stability of that system. This is a strong but brittle 
political order. The kinds of tremors that you referred to, 
Senator, with the wave of strikes, for example, are a reminder 
that the legitimacy of an order of that kind is always 
precarious.
    About sanctions. They have been much more powerful than we 
expected because of their interaction with oil prices, just as 
you suggest. The effect of the oil price drop would have been 
less if Russian banks and corporations had had an easy option 
of refinancing through the west. The partial closure of access 
to western capital markets has made the problems of Russian 
state corporations and other businesses that much greater.
    It is probably right, at least many Russian friends of mine 
say what Admiral Stavridis said. Just if you want to sharpen 
the impact of sanctions, the easiest option available is to add 
sanctions on individuals. We always think that the broader 
sanctions are going to have the bigger bite, but people in 
Putin's circle, who will see that sanctions against them are 
their reward for being supporters, will, you know, have to 
ask--whether the boss knows what is doing.
    One other thing about individual sanctions is that they do 
not require the same degree of unanimity to have an effect. We 
can take actions of that sort ourselves, and that can send a 
powerful message about where we are going with our policy.
    Senator Reed. Thank you. Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman. Gentlemen, thank 
you for your testimony this morning. I would make two 
assumptions, number one that the situation in the Ukrainian is 
not acceptable in its current way. The status quo is not 
acceptable, and that it should be reversed. The second 
assumption would be that the United States should not go this 
alone. If those two assumptions are correct, does NATO, 
assuming that NATO is the appropriate entity to take action, 
does NATO have the current capabilities to respond 
appropriately to the aggression that has been shown by Mr. 
Putin? Second of all, does NATO through the individual 
membership, do they have the political will to get it done? Is 
that what is slowing it down today?
    Admiral Stavridis. I think the short answers are yes and 
no. NATO has the military capability. It over matches Russia in 
essential every military area, particularly in its high tech, 
its number of troops, its combat aircraft, et cetera. But it 
does not--because it is a consensus-built organization, which 
means all 28 have to agree with anything, I think it is highly 
unlikely that the alliance would step into Ukraine in a 
significant way and respond to Vladimir Putin on the ground.
    I do think if Putin came after a NATO country, Estonia 
being the sort of classic scenario that is bandied about, I do 
believe the alliance would respond strongly and aggressively to 
that.
    Mr. Brzezinski. Sir, I would second what the Admiral said 
fully. Let me go one step further and say that if the 
alliance--not the alliance. If we in the west want to do some 
of the things that the committee has supported, like arm the 
Ukrainians, and some have argued more severe sanctions, I think 
we are going to have to move out of institutions like NATO and 
the EU and go into coalitions of the willing.
    That has risks because it underscores a certain amount of 
disunity, but it has the advantages of actually actions being 
taken. I am confident that if the United States were able to 
pull together a coalition of the willing, and I think it could, 
for example, in arming Ukraine, I would look to the UK, I would 
look to Poland, I would look to that Balts, I would look to 
some of the Scandinavian countries.
    Canada? Thank you. That coalition of the willing could 
provide weapons that are needed by Ukraine. It would 
demonstrate that such moves are actually constructive, and it 
would eventually pull the alliance along.
    Dr. Sestanovich. I would add only that we should not over 
focus on military support for Ukraine. Military support is 
extremely important, but the crisis that Ukraine faces is a 
much broader one. Given the severity of the economic disaster 
that is happening there, it is not too much to call it an 
existential crisis.
    We can build up the Ukrainian military and still find that 
the Ukrainian economic order collapses. To deal with that 
problem, we are, in fact, going to need, as you suggest and as 
my colleague suggests, multilateral support. We need the IMF 
[International Monetary Fund] to step up as it has, and 
Congress should understand that what lies between the status 
quo in Ukrainian and the unthinkable collapse of the Ukrainian 
economy is probably going to be that institution, plus other 
creditors helping out. This is going to have to be a pretty 
broad-based international effort to rescue the Ukrainians, and 
it is going to be expensive.
    Senator Rounds. Which in this particular coalition does not 
exist today.
    Dr. Sestanovich. Well, I would not actually say that. The 
core of it exists. There has been a good IMF response, and 
western governments have been helpful, but it is probably going 
to have to draw in Ukraine's creditors. The Ukrainian 
Government is reaching out to try to reach understandings with 
its creditors so as to build up its--strengthen its balance 
sheet. But this is something that is an ongoing process, and I 
do not mean to say that the business of the Armed Services 
Committee is not the only element of saving Ukraine. I do mean 
to say that actually. I think it is important for the Armed 
Services Committee to understand how much the work of other 
arms of the U.S. Government will be crucial in keeping Ukraine 
afloat.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman, and thank all of 
you for being here today. I just came back from Berlin a few 
weeks ago, and it was the Aspen Group that met with Ukraine and 
Russian scholars and leaders. First of all, the thing I walked 
away with is the Cold War today is colder than the Cold War 
when we had declared a Cold War. If anybody could touch on 
that, how we build the relations, if there is something we did 
not know about or do not know about it. But seems like there is 
a very little conversation, dialogue trying to build any 
relations with the United States and Russia. First and foremost 
that.
    Next of all, exporting oil is something we are talking 
about in our Energy Committee. Do we export crude? We have not 
done it since the 1970s with the OPEC [Organization of the 
Petroleum Exporting Countries] situation we ran into back in 
the early 1970s. Could we use this strategically for our 
Nation? I think it would be hard for me to explain in West 
Virginia that we ought to export more crude and it will make 
prices cheaper at the gas pump. That is a hard lift to explain. 
Strategically they would back it 100 percent if we knew that we 
were putting--bring those nations who have oil that they have 
used their energy for the wrong reasons. So to touch on that 
one.
    Finally, we were told at this conference we had for a week 
that we should be very careful if we arm the Ukrainians, even 
defensive weapons, because it gives Putin really a reason to do 
what he would like to do anyway and be more aggressive. So they 
were very cautious. I took the approach that in West Virginia 
if a bully is picking on somebody who is undersized or taking 
advantage, you just want to make sure they have the ability to 
fight back. So I would have said let us give Ukrainian all the 
weapons. I have a second thought and a pause button on that one 
because of what I had heard, and it could just escalate things 
much worse than what they are today. I do not know if they will 
get much better, and maybe that is the only recourse we have.
    So first of all, on the relationship of crude and then 
basically the Ukraine arming--arming Ukraine.
    Admiral Stavridis. I am going to go with West Virginia on 
the approach. I have difficulty with this argument that says we 
should not arm them because we will provoke Vladimir Putin. I 
think he has demonstrated he is the bully in the neighborhood, 
and I do not think acquiescing to a bully is ever the right way 
to go. I say that as a guy who stands a towering 5-foot-5.
    [Laughter.]
    Dr. Sestanovich. I think, second, on the dialogue with 
Russia, we still have zones of cooperation with Russia. We 
cooperate with them to some degree in counterterrorism, a bit 
in counter piracy. We have reasonable dialogue at the moment 
with the Iranian nuclear negotiation. We will see. We have also 
seen Russia turn around and give advanced anti-air warfare 
weapons. So I would say that portion of the dialogue is 
breaking or about to break further. But we do have some minor 
areas where we can continue to talk, and we should do so.
    In terms of the crude oil, I think it makes sense in the 
broadest context of energy to try and alleviate others' 
dependence on Russian gas and oil, back to the $2 trillion gas 
station that the chairman has, I think, correctly identified. 
Thanks.
    Senator Manchin. Mr. Brzezinski?
    Mr. Brzezinski. Sir, thank you. Regarding energy security, 
energy security remains a key vulnerability for Central Europe. 
They are very dependent upon Russian oil and gas. In Poland I 
think it is 80 percent, 90 percent of its oil from Russia, over 
60 percent of its gas from Russia. Ukraine, of course, the 
numbers are much higher. The same in the Balkans. So we have to 
make addressing Central Europe and Europe's energy security a 
key priority, and I think U.S. policy has done that. We helped 
drive forward the southern corridor that will bring Caspian gas 
to Europe.
    I think the next big project really should be fostering the 
infrastructure necessary to integrate the energy markets of 
Central Europe together because they all remain certain 
islands, separate nations, separate energy markets, and to 
integrate them into that of a wider European energy market. 
That is a key long-term project.
    As for U.S. exports, I think it can only help Europe's 
energy security situation if we unleash our oil and gas upon 
the global market, but we should have also realistic 
expectations of how that will affect European security. Most of 
those exports probably would not go to Europe. They would 
probably go to Asia and elsewhere where the prices are higher. 
But by flooding the global market, it would actually push more 
global oil and gas towards Europe, helping diversify Europe's 
energy sources, and that has already been the case to a certain 
degree with LNG [liquified natural gas].
    Regarding arming Ukraine, I stand with West Virginia 
without question. I look at not only is it a strategic 
requirement because, you know, weakness can actually attract 
aggression certainly when you have a neighbor like Putin, but I 
also look at it as a moral imperative. I have to say I look 
back prior to the attack and remember--the attack of Ukraine. I 
remember how the Ukrainians actually sent a company of their 
own soldiers to a NATO Article 5 exercise. They have actually 
sent more soldiers than we have to Steadfast Jazz in Poland and 
Latvia.
    Then I think about the protestors on the Maidan who risked 
their lives, some lost their lives, expressing their desire to 
be part of Europe, their desire to be part of the EU, and their 
desire to be part of NATO. For us to kind of stand and look at 
our shoes in a way and limit our assistance to MREs [meals 
ready-to-eat] and blankets when they are being attacked by an 
aggressor I think is morally indefensible.
    Dr. Sestanovich. Well, West Virginia seems to be carrying 
the day here. But I would say, first of all, we are not 
limiting our assistance to MREs and blankets, and you know 
that, Ian. We do need to be smart and careful here because 
getting involved with weapons assistance can be destabilizing. 
We need to make sure that is not. I am completely in favor of 
providing this assistance, but I think that it is silly to say 
there are no risks involved. There are risks, and that is why 
we have got to be smart about it. But the risks are very, very 
great doing nothing, so we have got to watch it.
    About a Cold War, Admiral Stavridis is right that there are 
plenty of areas where we still can manage to sit across from 
the Russians and talk to them. But this is a real Cold War 
suddenly, and we need kind of strong nerves for it. The message 
to the Russians has got to be you brought this on yourselves, 
and the principal responsibility for finding a way out of it to 
start with is not ours. It is yours because you began this. 
That I think it is really quite important for us to have the 
strength of that conviction.
    Finally, about energy, I agree with a lot of what has been 
said here. I would give you an operational suggestion. 
Secretary Kerry last summer said it is a goal of American 
policy to reverse--reduce European energy dependence on Russia. 
How is it coming? I would like some regular progress reports. I 
would say that is something to ask about in a persistent way to 
make sure that our government does better here what it does not 
always do, and that is follow through.
    Chairman McCain. Well, Doctor, the risk of destabilization 
assumes that the situation is stable. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman. Thank you, 
gentlemen, very much for being here today. We appreciate your 
testimony. I would also like to extend my congratulations to 
Senator Cotton, who is not with us today. Late last evening 
they welcomed an addition to their family. Baby boy Cotton was 
born last night. Anna is doing very well. So congratulations.
    Chairman McCain. He should be here this morning then.
    [Laughter.]
    Senator Ernst. Yes, her work is over, at least for the time 
being. Anyway, I would like to shift just a little bit and talk 
a little bit about Turkey just while I have you here, Admiral, 
if we could. It seems to me and to many others that Turkey has 
been maybe not such a strong ally as they should have been. We 
see that ISIL and al-Nusra seem to have extensive lines of 
communication within Turkey, and I would contend that there are 
those within the administration that tend to turn a blind eye 
to those types of activities going on within their own country.
    So, Admiral and others, if you could address Turkey and the 
situation as it stands with these different terrorist 
organizations. Maybe what the United States and others could do 
to discourage this type of activity.
    Admiral Stavridis. Senator, thank you. There is some good 
news in the overall stature of Turkey in the Alliance, and we 
should remember that. I am going to criticize Turkey 
momentarily. But we should remember that in every NATO 
operation--Afghanistan, Libya, the Balkans, counter piracy--
Turkey has been there. They have sent troops. They have been 
very engaged and involved. What is happening now, you are 
absolutely correct, is a different story. Despite having 
obviously a lengthy and extensive border that abuts both Syria 
and Iraq, among others, they have, in my view, failed to step 
up in the anti-Islamic State campaign. They should be much more 
involved at every level beginning with open access to their 
bases, more intelligence sharing, more use of their military 
capability against the Islamic State up and including ground 
troops, which I think are inevitable against the Islamic State. 
So in all of those dimensions Turkey is falling short.
    The reason is they are conflicted about objectives. They 
really want to see the end of the Assad regime. The Islamic 
State is nominally fighting the Assad regime. They have failed 
to recognize that the greater danger at this moment is, in 
fact, the Islamic State, A, and B, we can do both of those 
things. We can see the end of Assad and defeat the Islamic 
State. It requires will, coordination, cooperation. Turkey 
needs to do more.
    Senator Ernst. Gentleman, any other input?
    Mr. Brzezinski. I guess the only thing I would add, and I 
completely agree with Admiral Stavridis' points about what we 
could be expecting of Turkey. Also I think we have to take into 
account Turkey's perspective in its relationship with the west, 
which I think has caused it to kind of, to a certain degree, 
and I do not want to overstate this, disenfranchise itself, 
particularly within the European community. It has been 
frustrated now by over a decade of basically a cold shoulder 
from the EU and its aspirations. So, it has been almost kind of 
let free to a certain degree, and it is pursuing, not 
surprisingly, a more independent policy. Our challenge is how 
to pull Turkey in a constructive way fully into the fold.
    Senator Ernst. Very good.
    Admiral Stavridis. May I add one point? It is simply that 
we should give Turkey credit for dealing with an enormous 
humanitarian challenge. There are 2 million Syrians who are 
being--the bill for whom is being footed by Turkey, and that is 
a contribution to humanity. It does not, in my view, diminish 
their shortfall in reacting militarily.
    Senator Ernst. Thank you. If we could turn back to Ukraine 
and Russia just for a moment. We have talked extensively today 
about arming the Ukrainians, and I take the West Virginia 
approach also, very much so. But are there other types of 
programs that maybe we could assist the Ukrainians with? We 
have talked about, of course, energy. Are there agricultural 
programs, other types of things where we can just continue to 
assist them and build up their own economy in the meantime?
    Dr. Sestanovich. Well, Ukraine could be an agricultural 
powerhouse rivaling the greatest Midwestern producers. So watch 
it.
    Senator Ernst. Yes, they could.
    Dr. Sestanovich. Watch out what you wish for.
    [Laughter.]
    Surely the failure to develop Ukrainian agriculture has 
probably been as big as any failure of the past 25 years in 
sort of unlocking the potential of the Ukrainian economy. The 
Ukrainian economy is in such terrible shape that almost 
anything would help. The good news is that you have a team in 
place in Ukraine that really gets it, that understands what 
needs to be done. It is not as though we need to go there and 
tell them have you thought about Ukrainian agriculture. They 
know what the potential is and they know what the problems are.
    They need the resources. They need the political will. They 
need the time to let some of their measures take hold. But they 
are pretty serious about what they are doing, and they are 
implementing the kinds of policies that make some of them 
nervous actually about the political viability of it. That is 
why the prime minister calls himself a kamikaze appointment. He 
figures he ultimately is going to go up in flames. But I think 
the most important ingredient in this is time. They need to be 
able to hang in there long enough for the measures--the very 
sensible and path-breaking measures that they are taking to 
have some effect.
    Senator Ernst. Great. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
very much for being here. Most of our discussion this morning 
is focused on Russia, which is the elephant in the room. But as 
we look at threats to Europe's security, how concerned should 
we be about the economic situation that particularly parts of 
Europe are facing, the rise of nationalist parties in some of 
the--Greece, Spain, some of the other countries of Europe, and 
the potential for that to provide fertile ground for ISIS and 
terrorist attacks and Russia to agitate in a way that is a 
threat to European security? How do you assess that with 
respect to what is happening with Putin? Anybody.
    Mr. Brzezinski. Senator, I think you have hit on an 
underlying foundation element of Europe's security situation, 
and that is the fragility of its economy. The fragility of its 
economy is contributing to some of these emerging kinds of 
nationalist xenophobic parties. They are certainly not 
constructive.
    When I think of how this relates to Russia, I watch very 
much what is going on in Greece because I really feel that that 
could have a powerful impact on the European economy. There is 
a Grexit. There are going to be shutters, and they are going to 
go particularly through Southern Europe. It could even push 
Europe back into a recession.
    A Europe that is back into recession is a Europe that is 
going to be less able to mobilize as a whole to take on the 
challenges that we are discussing today, be it Russia's 
aggression to the East, be it the extremism we see in the 
Middle East, the extremism we see in North Africa and the 
refugee flows. It is going to be harder for us to act as a 
transatlantic community in a unified way. I really believe that 
I think Putin watches this closely. I think he times to a 
certain degree his moves according to when he thinks the 
alliance, the community, the transatlantic community, will be 
least able to respond forcefully and cohesively.
    Senator Shaheen. So what more--I am assuming that, Admiral 
Stavridis and Dr. Sestanovich, that you both basically agree 
with that assessment?
    Admiral Stavridis. I do. If I could just add, I think this 
is an area where we mentioned earlier that Putin was crushing 
us in the social networks and strategic communications. The 
Islamic State is crushing us as well.
    Senator Shaheen. Right.
    Admiral Stavridis. We need a countervailing strategic 
communications focus there along with all the other things that 
Ian has talked about. I think it is extremely concerning.
    Senator Shaheen. So that is what my next question was going 
to be. What can we do to better shore up what is happening in 
those areas? Obviously a better social media information 
campaign that can help respond. What else?
    Admiral Stavridis. The economic piece is enormous here, and 
I would start with the T-TIP, the Transatlantic Trade [and 
Investment] Partnership that is coming. I think that is a way 
that we can help the European economy directly. Putin hates it 
because it ties Europe to the United States, and I think it 
would have a very salutary effect.
    Thirdly, we ought to continue to do within the military 
domain the NATO things that you know so well, Senator. I think 
there is no single point solution here, but we need to continue 
to be engaged militarily, politically, economically, and in a 
communications sense. Otherwise, storm clouds ahead.
    Dr. Sestanovich. Could I just add one kind of encouraging 
word about----
    Senator Shaheen. Please.
    Dr. Sestanovich.--you know, these bumbling, passive----
    Senator Shaheen. Encouragement would be helpful.
    Dr. Sestanovich.--spineless, underperforming Europeans as 
we tend to portray them. Putin does watch this carefully, but 
he exaggerates the impact of it. That is why he has been so 
surprised by the extent of the European reaction to what he has 
done in Ukraine. He thought this would basically be forgotten 
within months. His view has been the European cannot tie their 
shoes. They cannot do anything collectively. In fact, the 
European Union has regularly reaffirmed a sanctions policy that 
Putin never saw coming.
    It gets me to the question of marketing because what you 
need from marketing is a good product. The most important part 
of developing a consistent public relations line is having a 
unified policy. So far we have been pretty good at that, and I 
think if we can hold that we have the solid foundation on which 
to build a more effective marketing policy. But the crucial 
ingredient, and I think this is--this hangs in the balance over 
the next 6 to 8 months is to keep a policy across the board--
military, economic, political support for Ukraine. That can 
unravel. Putin may not turn out to be totally wrong about the 
disunity of the west. But if by the end of the year he looks up 
and discovers that actually he has not been able to divide 
Europe and the United States, that will be a powerful message 
for him.
    Senator Shaheen. So when you say ``we,'' you are talking 
about Europe and the United States together.
    Dr. Sestanovich. I am, yes.
    Senator Shaheen. Okay. Thank you, Mr. Chairman. I have 
other questions, but I will----
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman. I am going to be a 
bit of a contrarian here and try to create an alternative 
scenario. I am trying to figure out whether this is the 
Sudetenland in 1938 or Sarajevo in 1914, and bear with me for a 
minute.
    Putin has a very weak economy. Domestically everything 
stinks. He has got an 80 percent approval rating in Russia 
principally because of nationalism and his strong man image of 
standing up to the west. Is it not possible that arming the 
Ukrainians, which would obviously be public in some way, shape, 
or form, whether it is anti-tank weapons or something else, 
would be playing into hands? It would be--he would say, see, I 
am standing up against America. They are trying to invade our 
region of the country--our region of the world. They are 
putting their troops and arms--maybe not troops, but arms, and 
it would embolden him.
    The second piece of my question is, you guys, it seems to 
me, are assuming a static universe. We arm the Ukrainians and 
nothing else happens. He would obviously respond in some way, 
and he is sitting on the side of the poker table with most of 
the chips because this is on his turf.
    I guess to throw one other historical analogy into the mix, 
Cuba. We were willing to take the world to the brink of nuclear 
because of perceived Russian, not aggression, but placement of 
weapons in our sphere of influence off of our country. I think 
we have got to think and put ourselves in his shoes, and I am 
just concerned. I have not made any firm decision on this, but 
I just do not think it is as easy as you say.
    We arm the Ukrainians. Then what happens? That is my 
question. Mr. Brzezinski, do you want to tackle that one?
    Mr. Brzezinski. First, I would say that arming the 
Ukrainians is not the sole answer. I think it is a critical 
element of a strategy.
    Senator King. But what does he do if we arm the Ukrainians? 
What is the next--it is not just going to be, oh, they armed 
the Ukrainians. What does he do next? What happens next?
    Mr. Brzezinski. If he moves further into Ukraine after we 
arm the Ukrainians, the Ukrainians will impose higher costs on 
the aggressor forces, on the Russian forces. I think that is 
going to be--
    Senator King. But he controls the media in Russia. Does he 
care--I mean, he is not responsive. As you said, if your 
economy went down 1 percent we would have, you know, people in 
the streets. Over there they are not even going to know that 
there are more troops dying in the Ukraine.
    Mr. Brzezinski. You know, again, it is not the sole answer, 
but if there are more Russians, to put it crassly, dying in 
Ukraine, I think it is going to cause a political problem for 
Putin. One thing that I have been struck by watching this 
crisis politically or this even in Russia, is the steadfast, 
earnest, determined effort of the Russian Government to cover 
up Russian deaths in Ukraine. They do not have the equivalents 
of Faces of the Fallen. They deny that anyone has died. They 
deny their forces are there. They intimidate families who have 
lost their sons or their daughters in Ukraine telling them to 
be quiet. They move them out of their homes. They threaten to 
take away their death benefits. It is really interesting--
    Senator King. So is it your position then that we arm the 
Ukrainians and Putin does not respond. There are no further 
weapons for the separatists. There are no further troops. I 
mean, this is a fact--in fact a status universe. We arm--there 
is no response. I find that impossible to believe.
    Mr. Brzezinski. No, what happens is that, one, the Russians 
face a more complex situation, a more lethal situation. They 
face the prospect of a prolonged and costly conflict. That, I 
think, will probably deter them trying to push further in 
Ukraine. It also might make it possible they would be more 
willing to back out of Ukraine, at least out of Eastern 
Ukraine. It would also demonstrate to Putin the west is serious 
about sustaining the post-World War II security order, that we 
are not going to tolerate unilateral revisions of orders by 
force. I think those are dynamics that we are not trying--we 
are not leveraging, and we should be leveraging.
    Senator King. Others have thoughts about my question? I 
hope you appreciate that this is not easy.
    Admiral Stavridis. I totally do, and I think the key word 
Ian used was ``probably.'' This is a----
    Senator King. Yes, I heard that word, too.
    Admiral Stavridis. This is a calculus just like any 
decision you make, particularly when you use lethal force in 
any dimension. We always say in the Navy, when you release 
ordnance, everything changes. You are taking a gamble. But my 
assessment is that this is the right choice. In terms of what 
happens, I think Putin then has a much harder choice. He can 
either bring Russian forces under their flag into Ukraine and 
face, I think, overwhelming world approbation, or I think at 
that point he does start to unwind and reaches for the frozen 
conflict solution. I think that is probably the best we get out 
of this.
    But, no, of course, it is not static, Senator. There will 
be changes, and it is a risk, and it could go very badly. But I 
still recommend that we do it.
    Senator King. Sir?
    Dr. Sestanovich. Senator, since I am the member of the 
panel who has expressed the most unease about this, let me try 
to bring you around to my way of thinking about it since I do 
support it. I think you mentioned a static universe. You should 
not assume that the universe is static as long as the United 
States does not do anything. This is a fluid situation right 
now in which separatists are trying to push out in all 
directions, whether it is along the coast, to the north, to the 
west. They only control about a third of Donetsk Province and 
half of Luhansk, and they have said they want it all.
    They are definitely going to try to get the rest of these 
provinces, and they are going to try to expand their control 
across along the coast. It is just a certainty. I mean, if 
there is anything that one can regard as a law in this 
universe, that is going to happen. So the question----
    Senator King. I certainly understand that there are risks 
on both sides. There is a risk of inaction, and the universe is 
not static in either way. I do understand that. I am just 
trying to assess the risks, the relative risks.
    Dr. Sestanovich. The best scenario in which to try to have 
some effect of bolstering the operational capabilities of the 
Ukrainian forces is when there is a lull. The fact that Putin 
has agreed, even while not abiding by it much, but there is 
something of a lull. That is the moment in which we have to try 
to make sure that when people start to challenge that lull, to 
push out from what they hold now to what they want to hold, 
that they will be stopped, that they will face more resistance.
    I mean, the thing that finally makes me think, yes, of 
course you have to support these forces is without greater 
capability, there is no way that the separatists are not going 
to push out. So here is the question I would put to you, and I 
think you should put it to people in the administration because 
they plainly do not want to do this. What is your plan for 
stopping the separatist offensives that are going to go, you 
know, west, north, and south from the land that they hold now? 
What is your theory of the case?
    Senator King. Right.
    Dr. Sestanovich. If you have got a theory of the case that 
enables the Ukrainian forces to hold the line, great, you know. 
Let us hear it. I think if there were such a case that could 
avoid the----
    Senator King. The risk.
    Dr. Sestanovich.--the uncertainty and the risk that you 
identified, great. I just do not think there is that. But I 
would say challenge people in the administration because my 
sense is from your--what you said, that you do not want that to 
happen. I think they do not want it to happen either, but I do 
not think they have any answer to how they are going to keep it 
from happening.
    Senator King. It seems to me the answer is that we have to 
game out what happens in both directions. Particularly I am 
concerned, as I expressed, that when you are playing chess with 
a Russian, you had better think three moves ahead, not just 
react and no reaction, and I think that is a very important 
point. I am sorry, Mr. Chairman, I have gone over, but a very 
important point that we also have to game out the results of 
doing nothing, and see is there a strategy or is the strategy 
just to not act.
    Dr. Sestanovich. Gaming it out and doing nothing is totally 
easy. The separatists will expand their territory.
    Senator King. Thank you. Thank you, Mr. Chairman.
    Chairman McCain. Well, I think, Doctor, you have just 
answered my question, and I would ask the other two witnesses, 
and I am sure I know the answer. Is there any doubt that there 
will be attempts and, for no reason to believe they are not 
going to be successful under the present scenario to expand the 
Russian influence through the separatists throughout Ukraine? 
Admiral, is there any doubt in your mind?
    Admiral Stavridis. None whatsoever, and I suspect sooner 
rather than later. I think the mortars and the artillery are 
shelling the villages outside of Mariupol right now.
    Mr. Brzezinski. I completely agree with the Admiral. It is 
going to happen.
    Dr. Sestanovich. I think the separatists are determined to 
have this happen. What we do not know is how much the Russians 
really want it to happen. I think the Russians are unwilling to 
let the separatists be defeated, and the game that is going on 
between them is the separatists want to push out, and then when 
there is a counter response, they want to say to the Russians 
you have got to defend us. You have got to keep us from losing 
any of the ground that we have taken. So what our interest is 
is to make sure that they cannot actually take new ground 
because once they do, that will draw in more Russian support.
    Mr. Brzezinski. Could I follow up, sir?
    Chairman McCain. Sure.
    Mr. Brzezinski. Actually I get very concerned about what I 
feel is a tendency to exaggerate the gap between the 
separatists and Moscow. I never saw--was able to observe any 
significant separatist movement in Eastern Ukraine prior to 
this invasion. I firmly believe that ``the separatists'' are 
not separatists. They are an extension of the Russian polity. 
They were sent in to destabilize Eastern Ukraine. They were led 
by Russian provocateurs. They were backed by Russian soft 
[power], and they were ultimately backed by Russian 
conventional forces.
    So it is not really--there is not a tension that we can 
really exploit between separatists and Moscow. They are one and 
the same. It is an external invasion of Ukraine.
    Chairman McCain. I would also add that apparently if I were 
Vladimir Putin, and I do not pretend to understand him totally, 
but it seems that you achieve a degree of success, and that 
becomes the status quo. Things quiet down, then Europeans talk 
about relaxing sanctions and trying to find that out, and 
things are quiet for a while. Now, at least according to 
General Breedlove, we are starting to see an increase in 
activities after a period of lull. It seems to me that that has 
been pretty successful so far for Vladimir Putin. Doctor, is 
there anything to that theory, do you think?
    Dr. Sestanovich. Putin thinks he has got more endurance 
than the Europeans do and than the Americans do. You are right. 
As I said to Senator Shaheen earlier, his gamble is that 
whatever miscalculations he has made and how much greater the 
resistance has been, we will crack first. So, that is the test 
for us is not to crack first.
    Chairman McCain. Thank you. Jack, did you want to----
    Senator Reed. I just have just a brief comment. I think as 
has been indicated by the panel and particularly Mr. 
Brzezinski, that Putin is an opportunist. If there is an 
opportunity, he takes it. But he is also--I think, his timing 
is influenced by things like the Olympics. I think he was very 
reluctant to get involved in the Ukraine while the Maidan 
Square demonstrations were going on because he had another 
audience he was playing to. He was the world leader.
    I think similarly at his juncture we might be having a lull 
because they are in the process of celebrating the end of the 
Great Patriotic War, and he wants everyone to come and pay 
homage to him, et cetera. But after that, which is within a few 
weeks, there is no more, sort of him personally, reason to hold 
back, so that might be a factor also.
    But I think, and I will go in a second, I think your point, 
Doctor, which is this becomes ultimately a test of wills 
against this individual. He has the advantage of being an 
individual. We have a collective will we have to sustain and 
hold together. Thank you, Mr. Chairman.
    Chairman McCain. I do not mean to prolong this dialogue too 
much longer, but it seems to me energy is still a key item. We 
could develop within a couple of years an ability to get energy 
from the United States over to that part of the world, which I 
think would have a significant impact. That has nothing to do 
with arms or weapons. Finally, could I ask if there is an 
agreement on that, Admiral?
    Admiral Stavridis. I agree with that, Senator.
    Mr. Brzezinski. Sure.
    Dr. Sestanovich. Absolutely.
    Chairman McCain. I thank the witnesses for a very----
    Senator Shaheen. Mr. Chairman, can I----
    Chairman McCain. No. Yes.
    [Laughter.]
    Senator Shaheen. Can I ask a couple more questions?
    Chairman McCain. Absolutely.
    Senator Shaheen. Thank you. I want to go back, Dr. 
Sestanovich, to your comment about providing lethal weapons 
because I think there is a lot of agreement on this committee 
that we should provide those weapons, but you said we have to 
do it very carefully. So you talked about doing it during the 
lull. What other things do you think we should be doing as we 
are looking at providing those weapons to do it carefully?
    Dr. Sestanovich. Training is crucial. Intelligence 
capabilities are crucial. Those are the two that would come to 
my mind right off the bat. Then of course the economic backdrop 
means that we have to make sure that while we are getting those 
Ukrainians in smart formation on the front lines in good 
looking new uniforms, and knowing their tasks, the home front 
does not just collapse. That is--you know, if there is anything 
that is more desperate than the military outlook, it is the 
economic outlook.
    Senator Shaheen. Yes. I certainly think that is pretty 
clear to this committee. But let me ask because one of the 
things that I think that you all have alluded to is the 
importance of acting unilaterally with the United States and 
Europe, being united in our approach to the crisis. One of the 
reports about the European reaction to lethal weapons is that 
they do not support that, and that, therefore, this could be a 
potential area where we would disagree in a way that might have 
an impact. So how do you assess that as you look at the need to 
provide weapons? Admiral?
    Admiral Stavridis. Disagreement within NATO is unknown 
terrain at all, Senator, as you know quite well from your deep 
experience in NATO. Think back on the Libyan operation where we 
saw a group of nations leaning forward, very, very involved, a 
group of nations supportive, and then some who were essentially 
opposed, but willing to kind of come along. I think that is how 
this would play out.
    I do not accept the argument that this would somehow 
shatter the Alliance. I think at the end of the day you can do 
it within a NATO context with the Nations who want to, or as 
Mr. Brzezinski has said, you could create a coalition of the 
willing. He listed some states. I agree with that. I think 
there are mechanisms to deal with that argument.
    Senator Shaheen. Any other--Mr. Brzezinski?
    Mr. Brzezinski. Yes, I would like to make two points, 
Senator. First, I would add to the Admiral's list of how 
coalitions fell together into NATO without collapsing the 
Alliance. Missile defense is an example. Iran sanctions is 
another. I have two words of caution on strategy for arming 
Ukraine or two things we need to think about is, one, I think 
it is important that we avoid incrementalism.
    I am a little bit worried that our administration and our 
European allies' approach is first we will do some MREs, then 
we will do some Humvees, then we will do some counter-artillery 
radar and such. I think that is a mistake because I think that 
just maps out to Putin were the future is headed, and that 
actually will encourage him, embolden him to act while he is 
most effective, has the power balance most in his favor in 
Ukraine.
    Then second, I think we would be naive to assume just 
arming the Ukrainians and the Russians will not do anything. 
They are going to counter react. So we have to have a plan that 
goes beyond just arming Ukraine, so that if we provide good, 
robust security assistance to Ukraine, we are prepared for a 
sudden Russian offensive. For example, one step half-cocked and 
ready to go is really harsh economic sanctions that would be 
driven in either by the EU or by coalition like-minded nations 
to hit the Russians and then know in advance this is going to 
happen if they all of a sudden try and counter react 
aggressively to an effort to provide more needed security 
assistance to Ukraine.
    Admiral Stavridis. If I could, I would add, Senator, cyber. 
We need to add that to our shopping list as we think about how 
to help the Ukrainians. Thanks.
    Senator Shaheen. Thank you. I want to switch topics for my 
time that is left because one of the things that happened last 
week is that European regulators imposed antitrust charges as 
Gazprom. Do you think that is going to have any impact on the 
energy situation?
    Dr. Sestanovich. Yes. It has been a principle of Russian 
policy that Europe does not get to impose its rules on its 
energy trade with Russia. The result has been that Gazprom has 
had a very advantageous negotiating position with all European 
customers. It has been able to insist on separate negotiations 
with all customers with the result that its prices across 
Europe vary dramatically according to that bilateral 
relationship.
    For Europe to say we care about our policies and we are 
going to enforce them in our energy trade would be of immense 
importance. Europe has done that in kind of tentative ways, for 
example, with respect to energy transportation and pipelines. 
It has managed to block the Russian South Stream Pipeline by 
saying this does not meet our rules. The Russians have time and 
again laughed at that and said, oh, no, those rules are not in 
effect because we can buy off this or that individual customer 
or transit country.
    If the Europeans are going to turn around their energy 
relationship with Russia, they have got to start enforcing 
their rules, and it is has got to go beyond transportation. If 
it gets to the issue of negotiating about pricing, there will 
have been an energy revolution, so that is fundamental. But as 
you surely know from having EU events, one announcement does 
make a policy. The Europeans have opportunities for many 
procedural hurdles, reversals, and so forth.
    Senator Shaheen. Thank you. Thank you very much, Mr. 
Chairman.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. I want to thank all of you for being here. 
You know, having been to Ukraine twice last year and having had 
the privilege of overseeing the presidential elections, you 
know, I am just wondering, are we at a tipping point because 
many of us have been calling, and on a very strong bipartisan 
basis, for providing, you know, the lethal support for Ukraine 
to defend itself, as well as economic assistance, as well as 
increased NATO support, additional sanctions.
    At some point, I mean, I have just--it is really appalling 
to me. It is hard to express how I feel about it because we 
have been in almost uniformity here in the Congress on this, on 
things that, you know, we do not always agree on, so many 
things. On this we have sort of on a bipartisan basis thought 
this was the right thing to do, and I am just worried.
    Are we not at a critical moment where--I feel like in 
having listened to--I was at the Munich Security Conference 
having listened to, for example, the Germans speak about their 
objections to providing lethal arms. It is almost like I feel 
like that in some ways Ukraine is being written off, and I hate 
to be so cynical about it.
    But if we do not act soon, where is this going? I mean, is 
there not a huge urgency for this? I thought there was an 
urgency last May. But can you help us understand how urgent is 
this situation where you are--you know, we have got Ukraine 
with the economic situation, and in addition having to defend 
their territory.
    Admiral Stavridis. I think we are at a critical point, and 
I think what will happen in the next two to four weeks, maybe 
the next two to four months, is going to be another bite out of 
Ukraine by the separatists. I am hopeful that that will be the 
tip that pushes us over to come in with not only the lethals, 
but really the entire package of things we have talked about 
today.
    As of yesterday, as I mentioned to the chairman, mortar and 
artillery fire at the villages outside of Mariupol. That is 
what you do first when you soften up for a land advance. We may 
be there now. We will know more in the next couple of weeks. We 
have to get going on this if we are going to have impact.
    Senator Ayotte. I just wanted to also follow up. One of the 
things that struck me about this whole thing, and just correct 
me if I am wrong in my thinking, and it has really bothered me 
in terms of our foreign policy from the beginning, and that has 
been the Budapest Memorandum. It seems to me that we are not 
stepping up to help provide this kind of assistance that we 
have talked about here. We signed this agreement. As we look 
at, for example, even the context of Iran, other goals that we 
have of nuclear nonproliferation, does this not in the big 
picture undermine--I just still do not understand why other 
countries would want to give up their nuclear weapons when 
their territory is invaded, and yet we--you know, our signature 
on that memorandum seems to mean nothing in this context. Are 
you worried about that in the picture as we look at our larger 
foreign policy here?
    Mr. Brzezinski. Senator, I agree with you. I think there 
are two important issues at stake here in the violation of the 
Budapest Memorandum. I was a volunteer in Ukraine working in 
Kiev when that was signed, and I remember the impressions in 
Kiev intimately. It was celebrated in Ukraine as an affirmation 
of the west's commitment to its independence and its 
sovereignty. It was even seen as an affirmation of its attempts 
to become a European--an integrated member of the Europe 
``Community of Democracies'', because they were giving 
something up that was recognized as kind of potentially very 
important to their own security, nuclear weapons.
    Now 25, 30 years later, we are in a situation in which that 
Memorandum has been blatantly violated. Every country around 
the world that has or is aspiring to weapons of mass 
destruction is looking at it very carefully. What are the 
consequences if you give up such aspirations or such weapons? 
Well, you become more vulnerable? Will someone back you up? Not 
necessarily clear that they would.
    Then I think it is a real hit to the west's credibility 
because it was really seen a document driven by the United 
States and Great Britain, Europe and the United States. That is 
what the Ukrainians back when I was there in 1994 were looking 
to for assurances. Not to Russia, but to the United States and 
to Europe, and they are not getting it. It has really undercut 
our standing, the credibility of our security commitments.
    Dr. Sestanovich. Senator, I agree with you, but if it does 
not loom large in my thinking it is because it seems to me the 
case for supporting Ukraine is so strong.
    Senator Ayotte. Right. Well, it is compelling.
    Dr. Sestanovich. No matter what.
    Senator Ayotte. I mean, it is compelling.
    Dr. Sestanovich. Yes. I do not think we should in any way 
have the view that if there had been no Budapest Memorandum, we 
would be less interested in this case, or that we would be less 
interested in other cases where there is not that same issue.
    You are right that the commitment of the United States has 
been shown to have been made perhaps without full thought as to 
what we really meant by it. But I think--to me it is not the 
central issue. The broader question is the interest that we had 
in the entire order that we were trying to create in Europe 
after the Cold War.
    This is--the reason this is a fundamental threat to that 
interest has less to do with the disposition of Soviet nuclear 
forces. The truth is the Ukrainians did not really want to keep 
those things, and it has much more to do with more fundamental 
considerations of war and peace and our future relations with 
Russia.
    Senator Ayotte. Well, I hope--I know my time is up, but I 
know how dedicated the chairman has been to this issue, and how 
passionate he is, and I share his passion for this. I hope 
that--I hope that the administration is listening to the 
testimony of all of you today. Thank you.
    Chairman McCain. I want to thank the witnesses for being 
here today. It has been very helpful. The meeting is adjourned.
    [Whereupon, at 10:51 a.m., the committee adjourned.]

                                 [all]
</pre></body></html>
